APPENDIX

TABLE OF CONTENTS

Appendix A: Court of Appeals Opinion,
June 1, 2020 ................................................................... 1a
Appendix B: District Court Opinion,
April 16, 2018 ............................................................... 47a
Appendix C: Court of Appeals Order Denying
Rehearing,
August 24, 2020 ........................................................... 88a
Appendix D: Relevant Statutory Provisions
2 U.S.C. § 2163 ........................................................... 90a
7 U.S.C. § 2262 ........................................................... 90a
42 U.S.C. § 7507.......................................................... 91a
42 U.S.C. § 7521(a) ..................................................... 92a
42 U.S.C. § 7521(d) ..................................................... 92a
42 U.S.C. § 7522(a) ..................................................... 93a
42 U.S.C. § 7523(b) ..................................................... 94a
42 U.S.C. § 7524(a) ..................................................... 94a
42 U.S.C. § 7524(c) ..................................................... 95a
42 U.S.C. § 7541(a) ..................................................... 96a
42 U.S.C. § 7541(b) ..................................................... 97a
42 U.S.C. § 7541(c) ..................................................... 99a
42 U.S.C. § 7541(h) ................................................... 100a
42 U.S.C. § 7542........................................................ 100a
42 U.S.C. § 7543(a) ................................................... 103a
42 U.S.C. § 7543(b) ................................................... 103a
42 U.S.C. § 7543(d) ................................................... 105a
42 U.S.C. § 7543(e) ................................................... 105a
Appendix E: Relevant Dictionary Definitions
Webster’s Third New International
Dictionary (2002) ................................................ 107a

Black’s Law Dictionary (4th ed. 1968) ................... 108a

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
__________
Case No. 18-15937
IN RE VOLKSWAGEN “CLEAN DIESEL” MARKETING, SALES PRACTICES, AND PRODUCTS
LIABILITY LITIGATION,
THE ENVIRONMENTAL PROTECTION COMMISSION OF
HILLSBOROUGH COUNTY, FLORIDA; SALT LAKE
COUNTY, PLAINTIFFS-APPELLANTS,
V.

VOLKSWAGEN GROUP OF AMERICA, INC.; AUDI OF
AMERICA, LLC; PORSCHE CARS NORTH AMERICA,
INC.; ROBERT BOSCH, LLC; ROBERT BOSCH GMBH,
DEFENDANTS-APPELLEES.
__________
Argued and Submitted August 6, 2019
Anchorage, Alaska
Filed June 1, 2020
Before: TALLMAN, IKUTA, and N.R. SMITH, Circuit
Judges.
Opinion by Judge IKUTA.

(1a)

2a

IKUTA, Circuit Judge:
Volkswagen, 1 a car manufacturer, installed defeat
devices in new cars for the purpose of evading compliance with federally mandated emission standards, and
subsequently updated the software in those cars so the
defeat devices would do a better job of avoiding and
preventing compliance. 2 Volkswagen settled EPA’s
criminal and civil actions for over $20 billion dollars—
but failed to obtain a release of liability from state and
local governments at the same time. When two counties
sought to impose additional penalties for violation of
their laws prohibiting tampering with emission control
systems, Volkswagen persuaded the district court that
these claims were preempted by the Clean Air Act.
We agree with the district court only in part. We
agree that the Clean Air Act expressly preempts state
and local government efforts to apply anti-tampering
laws to pre-sale vehicles.3 But we disagree with the district court’s ruling that the Clean Air Act impliedly
1
We use “Volkswagen” to refer to the parent company,
Volkswagen Aktiengesellschaft (“Volkswagen AG”) and its several subsidiaries, including Volkswagen Group of America, Inc.
(“Volkswagen USA”), Audi of America, LLC (“Audi”), and Porsche Cars North America, Inc. (“Porsche”).
2
The following background facts are taken from the “Statement of Facts,” to which Volkswagen stipulated pursuant to its
plea agreement with the federal government. See United States
v. Volkswagen AG, No. 16-cr-20394-SFC-APP-8, Dkt. 68 (E.D.
Mich. Mar. 10, 2017).
3
We likewise agree with the district court that the Clean Air
Act does not expressly preempt the application of state and local
anti-tampering laws to post-sale vehicles.

3a
preempts state authority to enforce anti-tampering
laws against post-sale vehicles. In other words, the
Clean Air Act does not prevent the two counties here
from enforcing their regulations against Volkswagen
for tampering with post-sale vehicles.
We base this conclusion on Supreme Court precedent. A “high threshold must be met if a state law is to
be preempted for conflicting with the purposes of a federal Act.” Chamber of Commerce of U.S. v. Whiting,
563 U.S. 582, 607, 131 S.Ct. 1968, 179 L.Ed.2d 1031
(2011) (citation omitted). Volkswagen has not met that
high threshold here. The text and structure of the
Clean Air Act do not indicate any congressional intent
to prohibit states from enforcing anti-tampering laws
in this context. Moreover, the regulation of air pollution for health and welfare purposes “falls within the
exercise of even the most traditional concept of what is
compendiously known as the police power,” Huron
Portland Cement Co. v. Detroit, 362 U.S. 440, 442, 80
S.Ct. 813, 4 L.Ed.2d 852 (1960), so we must “assume
that ‘the historic police powers of the States’ are not
superseded ‘unless that was the clear and manifest
purpose of Congress,’” Arizona v. United States, 567
U.S. 387, 400, 132 S.Ct. 2492, 183 L.Ed.2d 351 (2012)
(citation omitted). No such purpose exists here.
We acknowledge that our conclusion—that the
Clean Air Act does not prevent the two counties from
enforcing their regulations against Volkswagen for
tampering with post-sale vehicles—may result in the
imposition of unexpected (and enormous) liability on
Volkswagen. But that result is caused by the unusual
and perhaps unprecedented situation before us. In
drafting the Clean Air Act, Congress apparently did

4a
not contemplate that a manufacturer would intentionally tamper with the emission control systems of its vehicles after sale in order to improve the functioning of
a device intended to deceive the regulators. In other
words, Volkswagen faces liability due to the straightforward application of the Clean Air Act and the
preemption doctrine to its unexpected and aberrant
conduct. We may not strain to give Volkswagen the
equivalent of a release from state and local liability
(which it did not secure for itself) by engaging in a
“freewheeling judicial inquiry into whether a state
statute is in tension with federal objectives; such an endeavor would undercut the principle that it is Congress
rather than the courts that preempts state law.” Whiting, 563 U.S. at 607, 131 S.Ct. 1968 (internal quotation
marks and citation omitted). 4

In view of the federal government’s central role in bringing
comprehensive civil and criminal enforcement actions against
Volkswagen and ultimately obtaining a $20 billion settlement, and
given that “the agency’s own views should make a difference” on
the question of federal preemption, Williamson v. Mazda Motor
of Am., Inc., 562 U.S. 323, 335, 131 S.Ct. 1131, 179 L.Ed.2d 75
(2011) (citation omitted), we asked the Solicitor General of the
United States and the EPA for their views on whether the CAA
preempts a state or its political subdivision from enforcing state
or local anti-tampering laws with respect to post-sale vehicles and
whether their agreements to settle their federal claims against
Volkswagen were intended to foreclose subsequent state or local
civil financial penalties. Envtl. Prot. Comm’n of Hillsborough
Cty. v. Volkswagen Grp. of Am., Inc., No. 18-15937, Dkt. 64 (9th
Cir. Aug. 22, 2019). The federal government elected not to provide
its opinion on these issues to aid us in addressing these significant
questions. Id., Dkt. 70 (Nov. 4, 2019).
4

5a
I
Under Title II, Part A of the Clean Air Act of 1990
(CAA), 5 car manufacturers cannot sell new motor vehicles in the United States unless the vehicles comply
with federal emission standards, including standards
for the emission of nitrogen oxide (NOx). See 42 U.S.C.
§§ 7521, 7525. The CAA gives the Environmental Protection Agency (EPA) the authority to establish emission standards for new motor vehicles, § 7521(a)(1), and
administer a certification program to ensure compliance with those standards, § 7525. To obtain a certificate of conformity from the EPA, a manufacturer must
submit an application to the EPA; the application must
be submitted for each model year and it must include
(among other things) test results from standardized
federal emission tests that demonstrate compliance
with the applicable emission standards. See 40 C.F.R.
§§ 86.1843-01, 86.1844-01, 86.1848-01. The CAA also
governs the use of emission control devices. 42 U.S.C.
§ 7521(a)(4)(A). A device “that reduces the effectiveness of the emission control system under conditions
which may reasonably be expected to be encountered
in normal vehicle operation and use” is called a “defeat
device,” 40 C.F.R. § 86.1803-01,6 and is prohibited, see
42 U.S.C. § 7522(a)(3)(B).

Title II of the CAA governs “Emission Standards for Moving
Sources.” 42 U.S.C. §§ 7521–7590. Part A of this title governs
“Motor Vehicle Emission and Fuel Standards.” §§ 7521–7554.
6
40 C.F.R. § 86.1803-01 provides:
Defeat device means an auxiliary emission control device
(AECD) that reduces the effectiveness of the emission control
system under conditions which may reasonably be expected to be
5

6a
A
In 1998, the EPA established new federal emission
standards for light duty vehicles, the type of vehicles
at issue here,7 including stricter NOx emission standards. Manufacturers were required to comply with the
new standards beginning with model year 2007 vehicles. Volkswagen concluded that some of its diesel engine vehicles would not be able to meet the heightened
NOx emission standards while still operating at a performance level that could attract customers. Therefore, beginning in 2006, Volkswagen employees developed and installed two defeat devices that would enable
its diesel engine vehicles to pass federal emission tests,
even though the vehicles could not actually meet the
NOx emission standards while being driven on the
street.
Volkswagen installed different defeat devices in vehicles with a 2.0 liter diesel engine (the “2.0 Liter Vehicles”) and vehicles with a 3.0 liter diesel engine (the
“3.0 Liter Vehicles”). The defeat device in the 2.0 Liter
Vehicles comprised software designed to recognize
whether the vehicle was undergoing federal emission
testing on a dynamometer 8 or was being driven on the
road. When the software detected that the vehicle was
encountered in normal vehicle operation and use, unless: [listing
exceptions].
7
“Light-duty vehicle means a passenger car or passenger car
derivative capable of seating 12 passengers or less.” 40 C.F.R. §
86.082-2.
8
A “dynamometer” is an instrument that measures the power
output of an engine. Dynamometer, Webster’s Third New International Dictionary 711 (2002) (“an apparatus for measuring mechanical power (as of an engine, an electric motor, or a draft animal)”).

7a
being tested, the vehicle performed in “dyno mode,”
i.e., in compliance with federal NOx emission standards. Otherwise, the vehicle would operate in “street
mode,” which substantially reduced the effectiveness
of the vehicle’s emission control system. When in street
mode, the vehicle’s NOx emissions were up to 35 times
higher than federal standards.
The defeat device installed in the 3.0 Liter Vehicles
was also designed to recognize when the vehicle was
undergoing emission testing, but rather than cause the
vehicle to switch between dyno mode and street mode,
the defeat device injected varying amounts of a solution, AdBlue, into the exhaust system. When the vehicle was being tested, the defeat device would inject
high amounts of AdBlue, reducing NOx emissions below federal standards. When the vehicle was being
driven on the street, the defeat device would inject less
AdBlue, causing NOx emissions to exceed federal
standards.
Between 2009 and 2015, Volkswagen installed these
defeat devices in approximately 585,000 new motor vehicles that were sold in the United States. During this
period, Volkswagen deliberately misled the EPA by
concealing the defeat devices and certifying that the
vehicles complied with federal NOx emission standards. Unaware of Volkswagen’s deception, the EPA issued certificates of conformity for these vehicles in
each model year. Volkswagen also misled consumers
by marketing the vehicles as “clean diesel” and “environmentally-friendly,” despite knowing that the vehicles “were intentionally designed to detect, evade and
defeat U.S. emissions standards.”

8a
Around 2012, consumers who purchased a 2.0 Liter
Vehicle began reporting hardware failures. In investigating these failures, Volkswagen engineers theorized
that the defeat device failed to switch into street mode
when the vehicle was being driven on the street. Because the 2.0 Liter Vehicles were not designed to comply with NOx emission standards except during the
short periods of testing, the Volkswagen engineers suspected that the hardware failures were caused by the
increased stress on the exhaust system from being
driven too long in compliance with NOx standards, i.e.,
in dyno mode.
To prevent such hardware failures, Volkswagen developed two software updates for the 2.0 Liter Vehicles. The first software update would decrease stress
on the exhaust system by causing the vehicle to start
in street mode rather than dyno mode; the second update would improve emission-testing detection by adding a “steering wheel angle recognition” feature. If a
vehicle’s steering wheel was stationary, the updated
software would recognize that the vehicle was being
tested and the engine would switch to dyno mode. But
if the updated software detected that the steering
wheel was turning, it would allow the engine to operate
in street mode.
Volkswagen began installing the updated software
in new 2.0 Liter Vehicles in 2014. The same year,
Volkswagen took the following steps for its post-sale
2.0 Liter Vehicles. First, it issued voluntary recalls and
installed the software fixes without revealing their purpose. Second, it updated the software when customers
brought their cars in for normal maintenance, again
without revealing the purpose of the software updates.

9a
In each scenario, Volkswagen deceptively told EPA
regulators and American consumers that the software
updates were intended to improve the operation of the
2.0 Liter Vehicles.
An independent study soon revealed that certain
Volkswagen vehicles emitted air pollutants at concentrations “of up to approximately 40 times the permissible limit.” The EPA commenced an investigation. In
August 2015, a Volkswagen whistleblower informed
federal regulators about the defeat device in the 2.0 Liter Vehicles. Eventually, Volkswagen disclosed the entire scheme affecting both the 2.0 and 3.0 Liter Vehicles to federal regulators.
The EPA subsequently issued notices of violation
and filed civil and criminal actions against Volkswagen
for violating the CAA. In the civil action, the EPA
charged Volkswagen with installing a defeat device on
new motor vehicles, in violation of 42 U.S.C. §
7522(a)(3)(B), and tampering with emission control
systems, in violation of § 7522(a)(3)(A), among other
things. In the criminal action, the EPA charged
Volkswagen with conspiracy, 18 U.S.C. § 371, obstruction of justice, § 1512(c), and introducing imported
merchandise into the United States by means of false
statements, § 542.
Volkswagen pleaded guilty to the criminal charges
and agreed to pay a $2.8 billion fine to the United
States. Pursuant to the plea agreement, Volkswagen
stipulated to a detailed statement of facts regarding
the defeat devices and agreed not to “contest the admissibility of, nor contradict” those stipulated facts “in
any proceeding.” The plea agreement did not give

10a
Volkswagen “any protection against prosecution” from
state or local governments.
Volkswagen also settled the civil CAA claims, entering into three consent decrees with the United States. 9
Other than California (which entered into the first and
second consent decrees), no other state or local government released Volkswagen from liability. To the contrary, each state expressly reserved its ability to sue
Volkswagen for damages. 10 In total, Volkswagen’s liability exceeded $20 billion.
B
While the EPA was litigating its civil and criminal
actions against Volkswagen, a number of states and

California was a party to both the first and second consent
decrees. At the time, California was authorized to “adopt and enforce” its own “standards relating to control of emissions from
new motor vehicles.” 42 U.S.C. § 7507; see also § 7543(b). But see
The Safer Affordable Fuel-Efficient (SAFE) Vehicles Rule Part
One: One National Program, 84 Fed. Reg. 51310 (Sept. 27, 2019)
(withdrawing the waiver previously provided to California for
certain emission standards, as applied to new motor vehicles).
Under this grant of authority, California, like the United States,
brought claims for injunctive relief against Volkswagen, alleging
violations of California environmental and unfair competition
laws.
10
Specifically, each state expressly reserved its right “to seek
fines or penalties” against Volkswagen in connection with being
named a beneficiary of a trust created by Volkswagen to help reduce the NOx emissions caused by Volkswagen’s noncompliant
vehicles. In re Volkswagen “Clean Diesel” Mktg., Sales Practices,
& Prods. Liab. Litig., No. 3:15-md-02672, Dkt. 2103-1, App’x D-3
at 2 (N.D. Cal. Apr. 16, 2018).
9

11a
counties brought separate lawsuits against the company for violating state and local laws that prohibit
tampering with vehicle emission control systems.
In 2016, the Multidistrict Litigation (MDL) judicial
panel transferred these actions to the district court for
the Northern District of California. 11 In 2017, the district court granted Volkswagen’s motion to dismiss a
suit brought by Wyoming, holding that the state’s
claim that Volkswagen violated Wyoming law by installing the defeat device in new motor vehicles was
preempted by the CAA. See In re Volkswagen “Clean
Diesel” Mktg., Sales Practices, & Prods. Liab. Litig.,
264 F. Supp. 3d 1040, 1052–57 (N.D. Cal. 2017). In light
of the district court’s ruling, several local governments
amended their respective complaints to allege facts relating not only to Volkswagen’s installation of the defeat device in new motor vehicles (i.e., pre-sale conduct), but also to Volkswagen’s modification to the defeat device in used vehicles (i.e., post-sale conduct).
Two of these complaints, one from Salt Lake
County, Utah, and one from Hillsborough County,
11
On December 8, 2015, pursuant to 28 U.S.C. § 1407, the MDL
judicial panel transferred 63 actions relating to Volkswagen’s defeat device as MDL No. 2672 to the Northern District of California for coordinated pretrial proceedings. The MDL judicial panel
noted that any other related actions were potential tag-along actions. See Rule 1.1(h), Rules of Procedure of the United States
Judicial Panel on Multidistrict Litigation (“‘Tag-along action’ refers to a civil action pending in a district court which involves
common questions of fact with either (1) actions on a pending motion to transfer to create an MDL or (2) actions previously transferred to an existing MDL, and which the Panel would consider
transferring under Section 1407.”). To date, the MDL judicial
panel has transferred over 1,500 actions as tag-along actions.

12a
Florida, (collectively, the “Counties”) are before us on
appeal.
Salt Lake County sued Volkswagen in Utah state
court. In its third amended complaint, Salt Lake
County alleged that Volkswagen’s installation of and
modification to the defeat devices violated Utah’s antitampering regulation, which provides: “[n]o person
shall remove or make inoperable the [emission control]
system or device or any part thereof, except for the
purpose of installing another [emission control] system
or device, or part thereof, which is equally or more effective in reducing emissions from the vehicle to the atmosphere.” Utah Admin. Code R. 307-201-4. 12 The complaint alleged that Volkswagen violated this regulation
by installing defeat devices in new vehicles to render
the emission control systems inoperable, and by modifying the software in post-sale vehicles to enhance the
defeat devices’ capabilities. The penalty for violating
Utah’s anti-tampering regulation is up to $5,000 per violation, with each day of violation constituting a separate offense. Utah Code Ann. § 19-1-303(1)(a), (3). The
complaint also brought common law claims for intentional misrepresentation and nuisance. Volkswagen removed the Salt Lake County action to federal court.
The Environmental Protection Commission of Hillsborough County (EPC), Florida, filed an action against
Volkswagen in Florida district court. EPC’s first
amended complaint alleged that Volkswagen violated
12
See also Utah Code Ann. § 26A-1-123(1)(a) (“It is unlawful
for any person, association, or corporation, and the officers of the
association or corporation to violate state laws or any lawful notice, order, standard, rule, or regulation issued under state laws
or local ordinances regarding public health or sanitation.”).

13a
two of the county’s anti-tampering and defeat device
regulations, which provide that “[n]o person shall tamper, cause, or allow the tampering of the emission control system of any motor vehicle,” and no person shall
“manufacture, install, sell or advertise for sale, devices
to defeat or render inoperable any component of a motor vehicle’s emission control system.” Rules of Envtl.
Prot. Comm’n of Hillsborough Cty., Rule 1-8.05(1),
(6).13 The complaint alleged that Volkswagen violated
these provisions by installing defeat devices in new vehicles, and by tampering with the emission control systems of used vehicles registered in the county through
a program of field fixes and recall campaigns. The penalty for violating Hillsborough County’s anti-tampering and defeat device regulation is up to $5,000 per violation, with each day of violation constituting a separate offense. See Hillsborough County Environmental
Protection Act, Fla. Laws 84-446 § 17(2) (as amended
by Fla. Laws 87-495 (2005)).
The Counties’ claims were transferred to the district court presiding over the MDL as tag-along actions. Volkswagen moved to dismiss the Counties’
claims for failure to state a claim. The district court
granted the motion. It first determined that, on their
face, the Counties’ anti-tampering rules applied to
Volkswagen’s conduct in installing and subsequently
13
As used in the Hillsborough County regulations, “emission
control system” means “the devices and mechanisms installed as
original equipment at the time of manufacture ... for the purpose
of reducing or aiding in the control of emissions,” Rules of Envtl.
Prot. Comm’n of Hillsborough Cty., Rule 1-8.03(2)(b), and “tampering” means “the intentional inactivation, disconnection, removal or other modification of a component or components of the
emission control system resulting in it being inoperable,” id.,
Rule 1-8.03(2)(h).

14a
enhancing the defeat devices. Volkswagen does not
challenge this conclusion.
Nevertheless, the district court dismissed the Counties’ actions with prejudice. It held that the Counties’
claims, as applied to new vehicles, were preempted by
§ 209 of the CAA, which precludes state and local governments from adopting or attempting to enforce “any
standard relating to the control of emissions from new
motor vehicles or new motor vehicle engines.” 42
U.S.C. § 7543(a). As to post-sale vehicles, the district
court concluded that the CAA preempts the Counties’
anti-tampering rules because Volkswagen made postsale software changes on a model-wide basis and Congress intended for model-wide tampering to be regulated exclusively by the EPA.
On appeal, the Counties argue that the CAA does
not preempt their claims for either pre-sale or postsale vehicles.
We have jurisdiction under 28 U.S.C. § 1291. We review the district court’s preemption analysis de novo.
Ting v. AT&T, 319 F.3d 1126, 1135 (9th Cir. 2003).
II
The question on appeal is whether the Counties’
regulations imposing penalties for tampering with
emission control systems in motor vehicles are expressly or impliedly preempted by the CAA’s motor vehicle emission standards. We begin with the framework
for considering whether Congress has preempted (or
displaced) state law. The Supremacy Clause provides
that federal law “shall be the supreme Law of the
Land; and the Judges in every State shall be bound

15a
thereby, any Thing in the Constitution or Laws of any
State to the Contrary notwithstanding.” U.S. Const.
art. VI, cl. 2. “The Clause provides a ‘rule of decision’
for determining whether federal or state law applies in
a particular situation.” Kansas v. Garcia, ––– U.S. –––
–, 140 S. Ct. 791, 801, 206 L.Ed.2d 146 (2020) (quoting
Armstrong v. Exceptional Child Ctr., Inc., 575 U.S.
320, 324, 135 S.Ct. 1378, 191 L.Ed.2d 471 (2015)). The
basic principle is as follows: “If federal law imposes restrictions or confers rights on private actors and a state
law confers rights or imposes restrictions that conflict
with the federal law, the federal law takes precedence
and the state law is preempted.” Id. (internal quotation
marks omitted) (quoting Murphy v. Nat’l Collegiate
Athletic Ass’n, ––– U.S. ––––, 138 S. Ct. 1461, 1480, 200
L.Ed.2d 854 (2018)).
Congress may expressly preempt state law by enacting a clear statement to that effect. Id. “If the statute contains an express pre-emption clause, the task of
statutory construction must in the first instance focus
on the plain wording of the clause, which necessarily
contains the best evidence of Congress’ pre-emptive intent.” CSX Transp., Inc. v. Easterwood, 507 U.S. 658,
664, 113 S.Ct. 1732, 123 L.Ed.2d 387 (1993).
Congress may also preempt state law implicitly. In
discerning whether there is implied preemption, our
analysis “must be guided by two cornerstones of ... preemption jurisprudence.” Wyeth v. Levine, 555 U.S. 555,
565, 129 S.Ct. 1187, 173 L.Ed.2d 51 (2009). “First, ‘the
purpose of Congress is the ultimate touchstone in
every pre-emption case.’” Id. (quoting Medtronic, Inc.
v. Lohr, 518 U.S. 470, 485, 116 S.Ct. 2240, 135 L.Ed.2d
700 (1996)). We must find such a purpose “grounded ‘in

16a
the text and structure of the statute at issue.’” Garcia,
140 S. Ct. at 804 (quoting CSX Transp., Inc., 507 U.S.
at 664, 113 S.Ct. 1732). “Second, in all pre-emption
cases ... we start with the assumption that the historic
police powers of the States” are not preempted “unless
that was the clear and manifest purpose of Congress.”
Wyeth, 555 U.S. at 565, 129 S.Ct. 1187 (alteration
adopted and internal quotation marks omitted) (quoting Lohr, 518 U.S. at 485, 116 S.Ct. 2240). Both of these
cornerstones support the same analytic approach: “a
high threshold must be met” before a court will conclude that a federal law has impliedly preempted a
state law. Whiting, 563 U.S. at 607, 131 S.Ct. 1968 (citation omitted).
The Supreme Court has articulated two circumstances—referred to as “field preemption” and “conflict preemption”—where Congress’s implicit intent to
preempt state law clears that high threshold. First,
“when federal law occupies a ‘field’ of regulation ‘so
comprehensively that it has left no room for supplementary state legislation,’” Murphy, 138 S. Ct. at 1480
(quoting R.J. Reynolds Tobacco Co. v. Durham Cty.,
479 U.S. 130, 140, 107 S.Ct. 499, 93 L.Ed.2d 449 (1986)),
a court may infer that Congress intended to preempt
state law.
Second, when a state law “actually conflicts with
federal law,” English v. Gen. Elec. Co., 496 U.S. 72, 79,
110 S.Ct. 2270, 110 L.Ed.2d 65 (1990), either because
“compliance with both state and federal law is impossible,” or because “the state law ‘stands as an obstacle to
the accomplishment and execution of the full purposes
and objectives of Congress,’” Oneok, Inc. v. Learjet,
Inc., 575 U.S. 373, 377, 135 S.Ct. 1591, 191 L.Ed.2d 511

17a
(2015) (quoting California v. ARC Am. Corp., 490 U.S.
93, 100–01, 109 S.Ct. 1661, 104 L.Ed.2d 86 (1989)), a
court may again conclude that Congress implicitly intended to preempt state law. To evaluate a claim based
on the second type of conflict preemption—referred to
as “obstacle preemption”—a court must identify the
“full purposes and objectives” of the federal law from
“the text and structure of the statute at issue.” Garcia,
140 S. Ct. at 804 (quoting CSX Transp., Inc., 507 U.S.
at 664, 113 S.Ct. 1732). “The Supremacy Clause gives
priority to ‘the Laws of the United States,’” not the priorities and preferences of federal officers, id. at 807, or
the “unenacted approvals, beliefs, and desires” of Congress, P.R. Dep’t of Consumer Affairs v. Isla Petroleum Corp., 485 U.S. 495, 501, 108 S.Ct. 1350, 99
L.Ed.2d 582 (1988).
The Supreme Court has found obstacle preemption
in only a small number of cases. First, where the federal legislation at issue involved a “uniquely federal
area[ ] of regulation,” the Court has inferred a congressional intent to preempt state laws “that directly interfered with the operation of the federal program.” Whiting, 563 U.S. at 604, 131 S.Ct. 1968. Such unique federal areas include exercising foreign affairs powers,
Crosby v. Nat’l Foreign Trade Council, 530 U.S. 363,
373–74, 120 S.Ct. 2288, 147 L.Ed.2d 352 (2000), sanctioning fraud on a federal agency, Buckman Co. v.
Plaintiffs’ Legal Comm., 531 U.S. 341, 353, 121 S.Ct.
1012, 148 L.Ed.2d 854 (2001), and regulating maritime
vessels, United States v. Locke, 529 U.S. 89, 97, 120
S.Ct. 1135, 146 L.Ed.2d 69 (2000). Second, the Court
has inferred that Congress made “a considered judgment” or “a deliberate choice” to preclude state regu-

18a
lation when a federal enactment clearly struck a particular balance of interests that would be disturbed or
impeded by state regulation. Arizona, 567 U.S. at 405,
132 S.Ct. 2492. Thus, a state law imposing criminal penalties on aliens who sought or engaged in unlawful employment “would interfere with the careful balance
struck by Congress,” because “Congress made a deliberate choice not to impose criminal penalties” for the
same conduct. Id. at 405, 406, 132 S.Ct. 2492; see also
Geier v. Am. Honda Motor Co., 529 U.S. 861, 879–81,
120 S.Ct. 1913, 146 L.Ed.2d 914 (2000) (holding that
certain federal safety regulations “deliberately sought
a gradual phase-in” of airbags to give manufacturers
more time and increase public acceptance, and that
state tort law requiring the immediate installation of
airbags would have “stood as an obstacle” to the phasein program “that the federal regulation deliberately
imposed”); Int’l Paper Co. v. Ouellette, 479 U.S. 481,
494, 497, 107 S.Ct. 805, 93 L.Ed.2d 883 (1987) (holding
that the federal statute’s comprehensive regulation
“carefully addressed” the “balance of public and private interests,” giving rise to the inference that Congress did not intend to “tolerate common-law suits that
have the potential to undermine this regulatory structure”). Where Congress has determined the appropriate balance, state regulation involving a different
method of enforcement may upset that balance and be
displaced by federal law even where the state “attempts to achieve one of the same goals as federal law.”
Arizona, 567 U.S. at 406, 132 S.Ct. 2492.
Absent such circumstances, the Supreme Court has
frequently rejected claims of obstacle preemption. For
instance, the Court does not infer Congress intended
to preempt state enactments merely because they

19a
overlap with a federal act. “Our federal system would
be turned upside down if we were to hold that federal
criminal law preempts state law whenever they overlap, and there is no basis for inferring that federal
criminal statutes preempt state laws whenever they
overlap.” Garcia, 140 S. Ct. at 806.
This analysis is equally applicable in the civil context, especially when the federal statute expressly or
impliedly preserves state laws that might overlap with
a federal statute. See Whiting, 563 U.S. at 607, 131
S.Ct. 1968. The Court gives great weight to Congress’s
inclusion of a provision preserving states’ enforcement
authority. In Williamson, for instance, the Court concluded that a federal statute giving manufacturers a
choice to select a less effective car safety device did not
preempt a state tort suit that could require the manufacturer to select a more effective device. 562 U.S. at
332–36, 131 S.Ct. 1131. The Court reasoned that because Congress included “a statutory saving clause”
preserving state remedies, it foresaw “the likelihood of
a continued meaningful role for state tort law.” Id. at
335, 131 S.Ct. 1131. Similarly, in Whiting, the Court
concluded that federal law preempting “any State or
local law imposing civil or criminal sanctions” on employers who hire “unauthorized aliens,” did not impliedly preempt an Arizona law that authorized (and
sometimes required) the suspension or revocation of an
employer’s business license if the employer knowingly
or intentionally employed unauthorized aliens. 563
U.S. at 587, 131 S.Ct. 1968. The Court held that there
was no express preemption, because the state law fell
“comfortably within the saving clause.” Id. at 596, 131
S.Ct. 1968. The Court likewise concluded there was no
implied preemption of the Arizona law, because where

20a
“Congress specifically preserved such authority for the
States, it stands to reason that Congress did not intend
to prevent the States from using appropriate tools to
exercise that authority.” Id. at 600–01, 131 S.Ct. 1968.
Although a saving clause raises the inference that
Congress did not intend to preempt state law, the existence of a saving clause does not “foreclose or limit
the operation of ordinary pre-emption principles” that
are “grounded in longstanding precedent.” Geier, 529
U.S. at 869, 874, 120 S.Ct. 1913; see also Buckman, 531
U.S. at 352, 121 S.Ct. 1012 (broadening Geier‘s specific
holding to apply to all saving clauses). We may not interpret a saving clause as preserving a state law that
would so conflict and interfere with a federal enactment that it would defeat the federal law’s purpose or
essentially nullify it; rather, such a state law is
preempted under ordinary preemption principles. Said
otherwise, we infer that Congress did not intend the
saving provisions in a federal law to be interpreted in a
way that causes the federal law “to defeat its own objectives, or potentially, as the Court has put it before,
to destroy itself.” Geier, 529 U.S. at 872, 120 S.Ct. 1913
(internal quotation marks and citation omitted). But
this unremarkable principle means only that a court
must interpret a saving clause as it would any statutory
language: giving effect to its plain language and meaning in a way that best comports with the statute as a
whole. See FDA v. Brown & Williamson Tobacco
Corp., 529 U.S. 120, 133, 120 S.Ct. 1291, 146 L.Ed.2d
121 (2000) (explaining that courts must interpret statutes “as a symmetrical and coherent regulatory
scheme ... and fit, if possible, all parts into an harmonious whole” (citation and quotation marks omitted)); see

21a
also A. Scalia & B. Garner, Reading Law: The Interpretation of Legal Texts 180 (2012) (“[T]here can be no
justification for needlessly rendering provisions in conflict if they can be interpreted harmoniously.”).
III
We apply these principles to the question whether
the Counties’ anti-tampering rules are preempted.
A
Some background is helpful to put our interpretation of the CAA and its relationship with states’ laws
and police powers into context. The CAA is a joint venture, one that makes “the States and the Federal Government partners in the struggle against air pollution.”
Gen. Motors Corp. v. United States, 496 U.S. 530, 532,
110 S.Ct. 2528, 110 L.Ed.2d 480 (1990). The basic division of responsibility in Title II of the CAA reflects the
cooperative federalism principles that have long informed this nation’s air pollution control laws. See
Comm. for a Better Arvin v. EPA, 786 F.3d 1169, 1173
(9th Cir. 2015) (“[T]he CAA has established a uniquely
important system of cooperative federalism in the
quest for clean air.”); GenOn REMA, LLC v. EPA, 722
F.3d 513, 516 (3d Cir. 2013) (“This ‘cooperative federalism’ structure is a defining feature of the [CAA].”).
Prior to 1955, the regulation of air pollution was the
sole responsibility of the states as a matter of public
health, and the states enacted various regulations pursuant to their historic police powers. See Arthur C.
Stern, History of Air Pollution Legislation in the
United States, 32 J. Air Pollution Control Ass’n 44, 44,
47 (1982); see also, e.g., 1947 Cal. Stat. 1640; 1911 Iowa

22a
Acts 27; 1887 Minn. Special Laws 623. The federal government first partnered with the states in the fight
against air pollution in 1955, enacting the Air Pollution
Control Act and espousing a national policy “to preserve and protect the primary responsibilities and
rights of the States and local governments in controlling air pollution.” Act of July 14, 1955, Pub. L. No. 84159, 69 Stat. 322, 322 (1955). In 1963, Congress enacted
the first version of the CAA, Act of Dec. 17, 1963, Pub.
L. No. 88-206, 77 Stat. 392 (1963), which was “[b]uilt on
a scheme of ‘cooperative federalism,’” MacClarence v.
EPA, 596 F.3d 1123, 1125 (9th Cir. 2010).
The current version of the CAA recognizes “that air
pollution prevention ... and air pollution control at its
source is the primary responsibility of States and local
governments.” 42 U.S.C. § 7401(a)(3). In regard to air
pollution from motor vehicles, Congress has taken a
stronger lead in enforcing emission standards. Nevertheless, it has consistently preserved the legitimacy of
state regulations. For instance, although Congress displaced state emission standards for new motor vehicles
in 1967, see Air Quality Act of 1967, Pub. L. No. 90-148,
§ 208(a), 81 Stat. 485, 501 (1967); Clean Air Amendments of 1970, Pub. L. No. 91-604, § 8(a), 84 Stat. 1676,
1694 (1970), it has maintained a substantial role for
states in post-sale implementation and enforcement
ever since, see 42 U.S.C. §§ 7416, 7543(d); see also
Ashoff v. City of Ukiah, 130 F.3d 409, 412–13 (9th Cir.
1997) (describing how the CAA’s citizen suit provision
enables citizens to “sue on the basis of more stringent
state standards”). In sum, the regulation of air pollution falls within the historic police powers of the states,
see Huron Portland Cement Co., 362 U.S. at 442, 80

23a
S.Ct. 813, and the modern CAA maintains a cooperative federalism approach, see Gen. Motors Corp., 496
U.S. at 532, 110 S.Ct. 2528.
B
We now turn to the relevant text of the CAA. Under
Title II, Part A of the CAA, the federal government has
authority to establish “standards applicable to the
emission of any air pollutant from ... new motor vehicles.” 42 U.S.C. § 7521(a)(1). This includes the authority to set emission limits for air pollutants, § 7521(b),
and to promulgate standards governing the use of
emission control devices, § 7521(a)(4)(A). Failure to
comply with the CAA and regulatory emission standards for new motor vehicles can result in civil penalties,
criminal penalties, or both. See §§ 7413(c), 7524.
The CAA expressly preempts certain state and local
laws regulating emissions from new motor vehicles.
Under § 209(a) of the CAA:
No State or any political subdivision
thereof shall adopt or attempt to enforce
any standard relating to the control of
emissions from new motor vehicles or new
motor vehicle engines subject to this part.
No State shall require certification, inspection, or any other approval relating to the
control of emissions from any new motor
vehicle or new motor vehicle engine as condition precedent to the initial retail sale, titling (if any), or registration of such motor
vehicle, motor vehicle engine, or equipment.

24a
42 U.S.C. § 7543(a). A “new motor vehicle” is “a motor vehicle the equitable or legal title to which has
never been transferred to an ultimate purchaser,” §
7550(3), in other words, a pre-sale vehicle. Although
the CAA does not define a “standard relating to the
control of emissions,” the Supreme Court has provided
a definition. See Engine Mfrs. Ass’n v. South Coast Air
Quality Mgmt. Dist., 541 U.S. 246, 252–53, 124 S.Ct.
1756, 158 L.Ed.2d 529 (2004) (“South Coast”). In South
Coast, the Court first turned to the dictionary to define
“standard” as “that which ‘is established by authority,
custom, or general consent, as a model or example; criterion; test.’” Id. (quoting Webster’s Second New International Dictionary 2455 (1945)). The Court then
stated that “[t]he criteria referred to in § 209(a) relate
to the emission characteristics of a vehicle or engine.”
Id. at 253, 124 S.Ct. 1756. A vehicle meets the criteria
relating to emission characteristics in one of three
ways: by not emitting “more than a certain amount of
a given pollutant”; by being “equipped with a certain
type of pollution-control device”; or by having “some
other design feature related to the control of emissions.” Id. Accordingly, even a requirement “that certain purchasers may buy only vehicles with particular
emission characteristics” constitutes an “attempt to
enforce” a “standard.” Id. at 255, 124 S.Ct. 1756. In
light of this definition, § 209(a) precludes state or local
governments from imposing any restriction that has
the purpose of enforcing emission characteristics for
pre-sale, motor vehicles.
After a new motor vehicle is sold “to an ultimate
purchaser,” 42 U.S.C. § 7550(3), the express preemption clause no longer applies. Instead, the CAA preserves state and local governments’ authority over

25a
post-sale motor vehicles. Section 209(d) of the CAA
provides: “Nothing in this part shall preclude or deny
to any State or political subdivision thereof the right
otherwise to control, regulate, or restrict the use, operation, or movement of registered or licensed motor
vehicles.” 42 U.S.C. § 7543(d). A vehicle is registered
or licensed after sale to a consumer, so the saving
clause applies to post-sale vehicles. 14 The CAA does not
define “operation,” so taking South Coast’s lead, we
look to the dictionary, which defines it as “the quality
or state of being functional or operative” or the
“method or manner of functioning.” Operation, Webster’s Third New International Dictionary 1518 (2002).
Removing or making inoperable a vehicle’s emission
control system (i.e., tampering) affects the vehicle’s
“quality” and “method” of functioning (i.e., operation).
Therefore, the plain language of § 209(d) preserves
state and local governments’ authority to prohibit tampering with emission control systems in post-sale vehicles.
Despite the saving clause, the EPA retains some authority over post-sale vehicles. The CAA requires manufacturers of new motor vehicles to warrant the emission control system of the vehicle for the “useful life”
of the vehicle, with the useful life being 10 years or
100,000 miles. 42 U.S.C. §§ 7521(d), 7541(a)(1). Manufacturers must test post-sale vehicles for compliance
with EPA emission standards by performing “in-use
verification testing” on vehicles obtained from consumers at prescribed mileage intervals. See § 7541(b); 40
C.F.R. § 86.1845–04. If, pursuant to an EPA mandatory
14
See, e.g., Nev. Rev. Stat. § 482.423 (2019) (indicating that
the “certificate of registration and license plates for the vehicle”
will be issued only after “the sale of a new vehicle”).

26a
reporting regulation, a manufacturer reports that a
“specific emission-related defect exists in twenty-five
or more vehicles or engines of the same model year,”
40 C.F.R. § 85.1903(a)(2), then the EPA can require the
manufacturer to conduct a recall and remedy the defect, all at the manufacturer’s expense, 42 U.S.C. §
7541(c), (d). The EPA also has the authority to require
manufacturers to make post-sale “[c]hanges to the configuration of vehicles covered by a Certificate of Conformity,” including changes to vehicle software. See 40
C.F.R. § 86.1842–01(b). Failure to comply with any
EPA post-sale regulation can result in civil enforcement actions and other penalties. 42 U.S.C. § 7524.
Last, the CAA prohibits tampering with air pollution control devices in all motor vehicles, both pre-sale
and post-sale. See § 7522(a)(3)(A), (B). 15 These sections
make it a violation of the CAA “for any person to re-

42 U.S.C. § 7522(a)(3) provides that it shall be unlawful:
(A) for any person to remove or render inoperative any device
or element of design installed on or in a motor vehicle or motor
vehicle engine in compliance with regulations under this subchapter prior to its sale and delivery to the ultimate purchaser, or for
any person knowingly to remove or render inoperative any such
device or element of design after such sale and delivery to the
ultimate purchaser; or
(B) for any person to manufacture or sell, or offer to sell, or
install, any part or component intended for use with, or as part
of, any motor vehicle or motor vehicle engine, where a principal
effect of the part or component is to bypass, defeat, or render
inoperative any device or element of design installed on or in a
motor vehicle or motor vehicle engine in compliance with regulations under this subchapter, and where the person knows or
should know that such part or component is being offered for sale
or installed for such use or put to such use.
15

27a
move or render inoperative” an air pollution control device both before and after “sale and delivery to the ultimate purchaser,” or to install a defeat device on any
motor vehicle at any time. Id. In the event of a tampering violation, the CAA provides for the imposition of a
civil penalty not to exceed $25,000 per vehicle, with additional limitations on penalties for related offenses
committed by specified persons. § 7524(a). 16 The EPA
can give effect to the CAA’s penalty provision through
a civil or administrative action. § 7524(b), (c). When imposing a civil penalty through an administrative action,
the EPA must “take into account” a range of factors,
including “the gravity of the violation, the economic
benefit or savings (if any) resulting from the violation,
the size of the violator’s business, the violator’s history
of compliance with this subchapter, action taken to
remedy the violation, the effect of the penalty on the

42 U.S.C. § 7524(a) provides:
Any person who violates sections 7522(a)(1), 7522(a)(4), or
7522(a)(5) of this title or any manufacturer or dealer who violates
section 7522(a)(3)(A) of this title shall be subject to a civil penalty
of not more than $25,000. Any person other than a manufacturer
or dealer who violates section 7522(a)(3)(A) of this title or any
person who violates section 7522(a)(3)(B) of this title shall be subject to a civil penalty of not more than $2,500. Any such violation
with respect to paragraph (1), (3)(A), or (4) of section 7522(a) of
this title shall constitute a separate offense with respect to each
motor vehicle or motor vehicle engine. Any such violation with
respect to section 7522(a)(3)(B) of this title shall constitute a separate offense with respect to each part or component. Any person
who violates section 7522(a)(2) of this title shall be subject to a
civil penalty of not more than $25,000 per day of violation.
16

28a
violator’s ability to continue in business, and such other
matters as justice may require.” § 7524(c)(2). 17
IV
We now consider the application of the preemption
doctrine to the Counties’ anti-tampering rules. We first
ask whether the CAA’s express preemption provision
preempts the Counties’ anti-tampering rules. To the
extent the CAA’s express preemption provision does
not apply, we ask whether the Counties’ rules conflict
with the CAA, and therefore are impliedly preempted.
See Williamson, 562 U.S. at 329–30, 131 S.Ct. 1131.
A
Volkswagen argues that § 209(a), the CAA’s express
preemption provision, preempts the Counties’ imposition of anti-tampering rules on pre-sale vehicles. We
agree. Section 209(a) precludes a local government
from enforcing “any standard relating to the control of
emissions from new motor vehicles.” 42 U.S.C. §
7543(a). The Counties seek to enforce rules prohibiting
persons from making changes to a motor vehicle’s
emission control system. See Rules of Envtl. Prot.
Comm’n of Hillsborough Cty., Rule 1-8.05(1); Utah Admin. Code R. 307-201-4. The EPC additionally seeks to
enforce a rule prohibiting the installation of any device
designed “to defeat or render inoperable any component of a motor vehicle’s emission control system.”
Rules of Envtl. Prot. Comm’n of Hillsborough Cty.,
Rule 1-8.05(6). Because these requirements relate to
17
When the EPA initiates a civil action, the district court must
“take into account” the same range of factors when assessing a
penalty. 42 U.S.C. § 7524(b).

29a
the emission control system of a vehicle, they constitute standards for purposes of § 209(a). Therefore, §
209(a) preempts the Counties’ enforcement of these
rules with respect to new motor vehicles. See 42 U.S.C.
§ 7543(a).
The Counties argue that their anti-tampering rules
are not “emission standards” for purposes of § 209(a)
because they do not attempt to enforce the limitations
on emissions of pollutants from new motor vehicles
that are set forth in § 202 of the CAA, 42 U.S.C. § 7521
(emission standards for new motor vehicles). In the
same vein, the Counties argue that the anti-tampering
rules are not “standard[s] relating to the control of
emissions” because they merely prohibit tampering
with emission control systems. According to the Counties, these anti-tampering rules do not relate to the
control of emissions because “[a] vehicle does not have
to exceed emission standards for a tampering violation
to occur; a violation occurs whenever there is ‘the act
of removing or rendering inoperative any emission control device or element of design.’” These arguments
fail, because South Coast defined “standard” as denoting not only “numerical emission levels with which vehicles or engines must comply, e.g., 42 U.S.C. §
7521(a)(3)(B)(ii),” but also “emission-control technology with which they must be equipped, e.g., §
7521(a)(6).” South Coast, 541 U.S. at 253, 124 S.Ct.
1756. Because the Counties’ rules attempt to enforce
the integrity of “the emission-control technology with
which” the pre-sale vehicles must be equipped, id.,
they attempt to enforce a “standard,” and are therefore
preempted by § 209(a).

30a
B
We turn to Volkswagen’s argument that § 209(a)
also expressly preempts the Counties’ anti-tampering
rules as applied to post-sale vehicles. It clearly does
not. By its terms, § 209(a) preempts state and local regulations “relating to the control of emissions from new
motor vehicles.” 42 U.S.C. § 7543(a) (emphasis added).
The provision does not apply to post-sale vehicles.
Nevertheless, Volkswagen argues that the preemptive effect of § 209(a) does not end as soon as the “equitable or legal title” to a vehicle has “been transferred
to an ultimate purchaser.” § 7550(3). According to
Volkswagen, a long line of federal authority recognizes
that § 209(a) would be a dead letter if a state or local
government could impose a different emission standard the moment after title is transferred to a purchaser. In the leading case of Allway Taxi, Inc. v. City
of New York, a district court upheld a local ordinance
requiring licensed taxicabs to use a certain type of gasoline and to be equipped with an emission control device, but stated that a state or locality is not necessarily
“free to impose its own emission control standards the
moment after a new car is bought and registered” because that “would be an obvious circumvention of the
Clean Air Act and would defeat the congressional purpose of preventing obstruction to interstate commerce.” 340 F. Supp. 1120, 1124 (S.D.N.Y. 1972).
Volkswagen further notes that the EPA cited Allway
Taxi with approval in the preamble to a regulation,
stating that the “EPA expects that the principles articulated in Allway Taxi will be applied by the courts.”
Control of Air Pollution, 59 Fed. Reg. 31306, 31330
(June 17, 1994).

31a
Volkswagen’s reliance on Allway Taxi is misplaced.
The Counties’ anti-tampering rules do not require
Volkswagen to comply with a local emission standard
that is different from the federal standard, nor do they
impose a standard that would effectively require car
manufacturers to alter their manufacture of new vehicles before sale. Rather, the anti-tampering rules prohibit post-sale tampering with federally mandated
emission control systems. In this context, the Counties
can regulate Volkswagen’s post-sale tampering with
vehicles’ emission control systems to make them less
effective just as it can penalize the local garage mechanic who disconnects vehicles’ emission control devices to improve performance or gas mileage. Such an
exertion of authority is not expressly preempted by §
209(a).
V
Because we reject Volkswagen’s argument that §
209 of the CAA expressly preempts the Counties’ antitampering rules as applied to post-sale vehicles, we
turn to the more difficult question raised by the parties: whether the CAA impliedly preempts the Counties’ anti-tampering rules as applied to post-sale vehicles.
Volkswagen’s theory of implied preemption is based
only on the doctrine of obstacle preemption. 18 Specifi-

Volkswagen does not argue that Congress intended to occupy the field of emission regulations, nor could it, given that
Congress contemplated that state and local governments would
play a role in implementing the motor vehicle controls mandated
18

32a
cally, Volkswagen claims that the Counties’ anti-tampering rules stand “as an obstacle to the accomplishment and execution of the full purposes and objectives”
of Title II, Part A of the CAA, and therefore they are
impliedly preempted. Oneok, 575 U.S. at 377, 135 S.Ct.
1591 (quoting ARC Am. Corp., 490 U.S. at 100–01, 109
S.Ct. 1661).
In considering Volkswagen’s obstacle preemption
arguments, we begin with the text and structure of the
CAA. See Garcia, 140 S. Ct. at 804. As directed by the
Supreme Court, we consider the impact of Congress’s
inclusion of a saving clause, see Williamson, 562 U.S.
at 335, 131 S.Ct. 1131; Whiting, 563 U.S. at 600–01, 131
S.Ct. 1968, in light of the presumption “that ‘the historic police powers of the States’ are not superseded
‘unless that was the clear and manifest purpose of Congress,’” Arizona, 567 U.S. at 400, 132 S.Ct. 2492 (citation omitted).
The CAA’s preemption clause (§ 209(a)) and saving
clause (§ 209(d)) allocate authority between the federal
government and state governments as follows: Section
209(a) gives the EPA exclusive authority to establish
standards for new vehicles, 42 U.S.C. § 7543(a), while §
209(d) preserves the authority of state and local governments over post-sale vehicles, 42 U.S.C. § 7543(d).
The plain language of § 209(d), providing that nothing
in Title II “shall preclude or deny to any State or political subdivision thereof the right otherwise to control,
regulate, or restrict the use, operation, or movement of
by the CAA. See 42 U.S.C. § 7416. Nor does Volkswagen argue
that it is impossible to comply with both state and federal regulations, given that § 7522(a)(3)(A) and the Counties’ anti-tampering
rules prohibit the same conduct.

33a
registered or licensed motor vehicles,” appears to give
states substantial authority to enforce standards related to post-sale vehicles, including sanctioning tampering with emission control systems. Id.; see also
Whiting, 563 U.S. at 611, 131 S.Ct. 1968 (holding that
Congress’s express reservation of state authority to
impose certain civil sanctions means what it says). The
language of § 209(d) also indicates that Congress foresaw “the likelihood of a continued meaningful role” for
state enforcement. Williamson, 562 U.S. at 335, 131
S.Ct. 1131. Indeed, the vast majority of states have
laws prohibiting tampering with air pollution control
systems in motor vehicles. 19 We may presume that Con-

See Ala. Admin. Code r. 335-3-9.06; Alaska Admin. Code tit.
18, § 52.015; Ariz. Rev. Stat. Ann. § 28-1522; Ark. Admin. Code
014.01.5-7; Cal. Code Regs. tit. 16, § 3362.1; Colo. Rev. Stat. § 424-314; Conn. Gen. Stat. Ann. § 14-164c; Del. Code Ann. tit. 21, §
6701; D.C. Mun. Regs. tit. 18, § 750; Fla. Stat. Ann. § 316.2935;
Ga. Code Ann. § 40-8-130; Haw. Code R. § 11-60.1-34; Idaho Code
Ann. § 49-229; Ill. Admin. Code tit. 35, § 240.103; 326 Ind. Admin.
Code 13-2.1-3; Iowa Code Ann. § 321.78; La. Admin. Code tit. 55,§
817; Md. Code Ann. Transp. § 22-402.1; 310 Mass. Code Regs.
60.02; Mich. Comp. Laws Ann. §§ 324.6504, 324.6535; Minn. R.
7023.0120; Mo. Code Regs. Ann. tit. 10, § 10-5.381; Mont. Admin.
R. 17.8.325; 129 Neb. Admin. Code Ch. 36, § 001; Nev. Admin.
Code § 445B.575; N.H. Code Admin. R. Env-A 1102.01; N.J. Admin. Code § 7:27–15.7; N.Y. Comp. Codes R. & Regs. tit. 6, § 2186.2; 19a N.C. Admin. Code 3D.0542; N.D. Admin. Code 33.1-1508-02; Ohio Admin. Code 3745-80-02; Okla. Stat. Ann. tit. 47, § 12423; Or. Rev. Stat. Ann. § 815.305; 75 Pa. Stat. and Cons. Stat.
Ann. § 4531; 280-30 R.I. Code R. § 1.13.2; S.C. Code Ann. § 16-2190; Tenn. Comp. R. & Regs. 1200-03-36-.03; 30 Tex. Admin. Code
§ 114.20; Utah Admin. Code r. R307-201-4; 16-5 Vt. Code R. § 702;
9 Va. Admin. Code § 5-40-5670; Wash. Admin. Code § 173-42119

34a
gress was aware of these laws and did not intend to displace them, given that many of these state laws existed
during the period in which Congress amended the CAA
without making any changes to the preservation of
state authority. 20 See, e.g., Wis. Admin. Code NR §
154.17(2) (1972); Mont. Admin. R. 17.8.325 (effective
Dec. 31, 1972); see also Goodyear Atomic Corp. v. Miller, 486 U.S. 174, 184–85, 108 S.Ct. 1704, 100 L.Ed.2d
158 (1988) (“[Courts] generally presume that Congress
is knowledgeable about existing law pertinent to the
legislation it enacts.”).21 Congress’s “certain awareness
of the prevalence of state” law, coupled with its “silence
on the issue,” “is powerful evidence that Congress did
100; W. Va. Code Ann. § 22-5-15; Wis. Admin. Code NR § 485.06;
20.0002-13 Wyo. Code R. § 2.
20
Congress amended the CAA three times since enacting the
saving clause in 1967, see Clean Air Amendments of 1970, Pub. L.
No. 91-604, 84 Stat. 1676 (1970); Clean Air Act Amendments of
1977, Pub. L. No. 95-95, 91 Stat. 685 (1977); Clean Air Act,
Amendments, Pub. L. No. 101-549, 104 Stat. 2399 (1990), but the
language of the saving clause has never changed, see Air Quality
Act of 1967, Pub. L. No. 90-148, § 208(c), 81 Stat. 485, 501 (1967),
renumbered at 84 Stat. at 1694, and codified at 42 U.S.C. §
7543(d).
21
To the extent we give weight to the EPA’s interpretation of
the CAA in this context, it is clear that the EPA did not read the
CAA as preempting the states’ enforcement efforts. See Approval
and Promulgation of Air Quality State Implementation Plans
(SIP), 63 Fed. Reg. 6651-01, 6652 (Feb. 10, 1998) (“Even though
there is a federal [anti-tampering] law which provides for EPA
enforcement, many states [have enacted anti-tampering laws]
and use them successfully as enforcement tools for resolutions of
consumer complaints involving tampered vehicles, deterrence of
tampering, deterrence of selling tampered vehicles, and enforcement of tampering violations.”). We note, once again, that the
EPA declined to provide its opinion on this issue. See supra at
1206 n.4.

35a
not intend” to preempt local anti-tampering laws. Wyeth, 555 U.S. at 575, 129 S.Ct. 1187; see also Bonito
Boats, Inc. v. Thunder Craft Boats, Inc., 489 U.S. 141,
166–67, 109 S.Ct. 971, 103 L.Ed.2d 118 (1989) (“The
case for federal preemption is particularly weak where
Congress has indicated its awareness of the operation
of state law in a field of federal interest, and has nonetheless decided to ‘stand by both concepts and to tolerate whatever tension there is between them.’” (alteration adopted and citation omitted)); Head v. N.M. Bd.
of Exam’rs in Optometry, 374 U.S. 424, 432, 83 S.Ct.
1759, 10 L.Ed.2d 983 (1963) (holding that a state law
did not stand “as an obstacle to the full effectiveness of
the federal statute” because the federal government
“apparently viewed state regulation of advertising as
complementing its regulatory function, rather than in
any way conflicting with it”). Accordingly, the CAA’s
text and structure, particularly in light of the presumption that Congress does not impliedly preempt states’
historic police powers, weigh against a conclusion that
Congress intended to preempt the Counties’ anti-tampering rules.
Nor are there other factors weighing in favor of obstacle preemption. The regulation of air pollution from
post-sale vehicles does not involve a “uniquely federal”
area of enforcement, Whiting, 563 U.S. at 604, 131
S.Ct. 1968, because the basic division of responsibility
in Title II of the CAA reflects the cooperative federalism principles that have long informed this nation’s air
pollution control laws, see supra Part III.A. And even
if the regulation of post-sale vehicles were an important area of federal concern, the EPA’s ability to
enforce the federal anti-tampering law, 42 U.S.C. §
7522(a)(3)(A), is not impeded by the Counties’ parallel

36a
rules, and so there is no basis to infer a congressional
intent to preempt them. See Whiting, 563 U.S. at 605,
131 S.Ct. 1968 (holding that a state law regulating unauthorized alien employment did not interfere with
federal immigration law where the federal program
“operates unimpeded by the state law”). We also see no
indication that Congress struck a balance in the enforcement of post-sale emission standards that would
be upset by state anti-tampering rules. Unlike Arizona
and Geier, where Congress “deliberately sought” a
particular policy goal at the expense of others, Geier,
529 U.S. at 879, 120 S.Ct. 1913; see also Arizona, 567
U.S. at 405, 132 S.Ct. 2492, the text and structure of
the CAA expresses a general policy to prohibit tampering by “any person” at any time. § 7522(a)(3)(A). Faced
with such a generalized congressional objective, and
the fact that Congress does not occupy the field of postsale emission regulations, see supra at 1219 n.18, we
cannot infer that Congress made a “deliberate choice”
to preclude state regulations that overlap with federal
law. Arizona, 567 U.S. at 405, 132 S.Ct. 2492.
Accordingly, we conclude that Congress intended to
allow states to enforce anti-tampering rules related to
post-sale vehicles, and that such rules are not impliedly
preempted.
VI
Despite the strong indications that Congress did not
intend to preempt state efforts to prevent tampering in
post-sale vehicles, Volkswagen argues that interpreting the CAA as allowing such state enforcement efforts
would defeat the “purposes and objectives of Congress.” Oneok, 575 U.S. at 377, 135 S.Ct. 1591 (citation
omitted). Therefore, Volkswagen asserts, the Counties’

37a
anti-tampering rules are preempted under ordinary
preemption principles. Volkswagen relies on two distinct aspects of Title II to support its argument: (1) the
provisions requiring manufacturers to ensure that
post-sale vehicles comply with certain emission requirements on a model-wide basis, and (2) the provisions authorizing the EPA to impose civil penalties on
persons who tamper with vehicles. We consider each of
these arguments in turn.
A
Volkswagen first argues that Congress intended to
give the EPA exclusive oversight over post-sale compliance with emission standards on a model-wide basis,
and the Counties’ anti-tampering rules pose an obstacle to this goal. 22 Volkswagen’s argument proceeds in
three steps. First, Volkswagen points to the sections of

Volkswagen claims that the legislative history of the CAA
supports this theory because it indicates that Congress wanted to
avoid a patchwork of varying emission standards for vehicles nationwide, further supporting its argument that the Counties’ antitampering rules are preempted. Even if we consider this legislative history, however, it is inapplicable here. The Counties’ rules
(just like every other state anti-tampering rule) do not impose
unique emission standards; rather, they permit local governments to prohibit and penalize tampering with approved emission
control systems, which is exactly what the federal anti-tampering
law prohibits. The existence of identical federal and local laws
would not, as the district court put it, “create nightmares for the
manufacturers.” Therefore, Volkswagen’s concern about a patchwork of varying anti-tampering rules is unwarranted. And as the
Supreme Court has instructed, a mere overlap in federal and
state laws does not, without more, raise the inference that Congress intended to preempt the state laws. Garcia, 140 S. Ct. at
806.
22

38a
the CAA imposing post-sale obligations on manufacturers and tasking the EPA with ensuring compliance
with those obligations. For instance, the CAA requires
manufacturers to ensure that their vehicles’ emission
control system remains functional for at least 10 years
or 100,000 miles, see 42 U.S.C. §§ 7521(a)(1), (d),
7541(a)(1), (b), and to conduct a recall if certain modelwide defects are detected, see § 7541(c), (d). Second,
Volkswagen acknowledges that the CAA’s saving
clause preserves some state enforcement authority
over post-sale vehicles. Finally, Volkswagen argues
that the only way to harmonize the saving clause with
the EPA’s post-sale enforcement responsibilities is to
conclude that Congress intended the EPA to regulate
post-sale emission standards on a model-wide basis at
the manufacturer level without any interference from
the states, and that Congress also intended the states
to enforce the same standards only on an individualvehicle basis at the end-user level. In other words,
Volkswagen claims that Congress intended to prevent
state and local governments from enforcing their antitampering rules against manufacturers that engage in
post-sale tampering on a model-wide basis. The district
court concluded that such a division of authority between the federal and state governments would be sensible because the EPA was in a better position to regulate tampering when such conduct “involves thousands of vehicles, and the changes are made through
software updates instituted on a nationwide basis.”
We disagree. Whether such a division of labor is reasonable from a policy perspective (or is merely a reading of the CAA tailored to fit Volkswagen’s unique circumstances), this theory of partial preemption is not

39a
“grounded in the text and structure” of the CAA. Garcia, 140 S. Ct. at 804 (citation and internal quotation
marks omitted). Nothing in the CAA raises the inference that Congress intended to place manufacturers
beyond the reach of state and local governments.
Volkswagen itself concedes that the CAA does not afford “a wide-ranging grant of immunity [from state enforcement actions] based on the identity of the actor
(auto manufacturers).” As the district court put it, if “a
manufacturer were to tamper with a single in-use vehicle during vehicle maintenance, the Clean Air Act
would not bar a state or local government from bringing a tampering claim against the manufacturer if the
tampering occurred within its borders.” Nor does anything in the text or structure of the CAA raise the inference that Congress intended to shield a person from
state enforcement actions if that person tampered with
a large number of vehicles or engaged in systematic rather than sporadic tampering. The CAA prohibits “any
person” from tampering with an emission control device, manufacturers and dealers and local mechanics
alike. 42 U.S.C. § 7522(a)(3)(A). And contrary to
Volkswagen’s assertion, the CAA does not classify tampering by reference to its scope. See id. Indeed, the
CAA is entirely silent on this issue, probably because
Congress did not contemplate that a manufacturer
would systematically tamper with emission control devices on post-sale vehicles in order to ensure the devices were effectively (and illegally) disabled. Thus,
there is little textual evidence from which we can infer
that Congress made “a deliberate choice” to shield
such a manufacturer from state enforcement actions.
Arizona, 567 U.S. at 405, 132 S.Ct. 2492.

40a
In short, we cannot discern a congressional intent,
let alone a “clear and manifest purpose of Congress,”
to give the EPA exclusive authority over large-scale,
post-sale tampering by manufacturers, while giving
state and local governments concurrent authority only
when the tampering is conducted on a more casual, individual basis. Id. at 400, 132 S.Ct. 2492. Because we
see no indication that Congress intended to preempt
state and local authority to enforce anti-tampering
rules on a model-wide basis, we reject Volkswagen’s argument that interpreting § 209(d) according to its
terms would cause the CAA to “destroy itself.” Geier,
529 U.S. at 872, 120 S.Ct. 1913 (citation omitted).
B
Volkswagen next argues that the CAA’s penalty
provision, 42 U.S.C. § 7524, shows that Congress
struck a balance of interests with respect to the imposition of penalties, and this balance would be disturbed
if states could impose their own penalties for tampering with post-sale vehicles. By including a penalty provision in Title II of the CAA, so the argument goes,
Congress intended the EPA to have the exclusive authority to determine the appropriate penalty for every
tampering violation. Therefore, the potential for any
state penalties (large or small) “would seriously undermine the congressional calibration of force.”
To support its claim that the CAA gives the EPA
exclusive authority over the imposition of penalties,
Volkswagen first relies on a line of cases interpreting
the National Labor Relations Act as preventing states
from imposing any remedies for activities potentially
covered by the Act. See San Diego Bldg. Trades Council, Millmen’s Union, Local 2020 v. Garmon, 359 U.S.

41a
236, 79 S.Ct. 773, 3 L.Ed.2d 775 (1959); Amalgamated
Ass’n of Street, Elec. Ry. & Motor Coach Emps. of Am.
v. Lockridge, 403 U.S. 274, 91 S.Ct. 1909, 29 L.Ed.2d
473 (1971); Wis. Dep’t of Indus., Labor & Human Relations v. Gould Inc., 475 U.S. 282, 106 S.Ct. 1057, 89
L.Ed.2d 223 (1986). Volkswagen’s reliance is misplaced, because those cases involved a “special
preemption rule” applicable to “state laws regulating
matters that the National Relations Act ‘protects, prohibits, or arguably protects.’” Garcia, 140 S. Ct. at 807
(quoting Gould, 475 U.S. at 286, 106 S.Ct. 1057). Garmon and its progeny are based on “a presumption of
federal preemption,” Brown v. Hotel & Rest. Emps. &
Bartenders Int’l Union Local 54, 468 U.S. 491, 502, 104
S.Ct. 3179, 82 L.Ed.2d 373 (1984), “designed to prevent
‘conflict in its broadest sense’ with the ‘complex and interrelated federal scheme of law, remedy, and administration’” of the National Labor Relations Act, Gould,
475 U.S. at 286, 106 S.Ct. 1057 (quoting Garmon, 359
U.S. at 243, 79 S.Ct. 773). The Supreme Court has declined to extend this rule to other contexts. See Garcia,
140 S. Ct. at 807 (rejecting the argument that such a
rule is “operative or appropriate” in a context not involving the National Labor Relations Act). And it is
clearly not applicable here, where the federal law
makes “the States and the Federal Government partners in the struggle against air pollution,” Gen. Motors
Corp., 496 U.S. at 532, 110 S.Ct. 2528, and where we
assume that Congress did not intend to displace the
historic police powers of the states.
Volkswagen also offers textual arguments to support its claim. First, Volkswagen points to the list of
factors the EPA “shall take into account” before assessing a civil administrative penalty. 42 U.S.C. §

42a
7524(c)(2). According to Volkswagen, those factors
evince “the clear and manifest purpose of Congress” to
vest in the EPA the exclusive authority to penalize
post-sale tampering, Arizona, 567 U.S. at 400, 132
S.Ct. 2492, because those factors indicate that the EPA
has discretion to determine the appropriate punishment. Volkswagen also suggests that “it would be virtually impossible for the EPA to strike its preferred
balance in quantifying a penalty” if states were allowed
to enforce their own anti-tampering laws independently, because the EPA would have no control
over the total amount of penalties actually imposed.
Second, Volkswagen points to the CAA’s penalty ceiling, which places a cap on federal penalties for tampering, as evidence that Congress intended to preclude
states from enforcing their own anti-tampering rules,
or at least the penalty components of those rules. See §
7524(a) (limiting the penalties for tampering to no
more than $25,000 per vehicle, with additional limitations for related offenses committed by specified persons). If states could independently impose penalties,
Volkswagen argues, the penalty cap would be meaningless.
These arguments fail. An exclusive federal regime
(such as the regime created by the National Labor Relations Act, as explained in Garmon and its progeny)
may preclude the imposition of state penalties. But the
mere fact that a federal statute permits the imposition
of federal penalties, without more, does not raise the
inference that Congress created an exclusive federal
regime. Because the CAA is, and always has been, a
cooperative-federalism partnership, see supra Part
III.A., there is no basis for Volkswagen’s argument
that Congress’s authorization of federal penalties,

43a
along with guidance on how those penalties should be
imposed, expressly or impliedly forecloses state and local governments from enforcing their own rules or imposing sanctions of their choosing. To the contrary, the
statutory provisions guiding the EPA in developing an
appropriate penalty, including the non-exhaustive list
of assessment factors and the penalty cap, are directed
only at the EPA; there is no suggestion that Congress
wanted to exclude state and local anti-tampering remedies. While this gives the EPA the authority to control
only the amount of the federal penalty, we see nothing
inherently problematic about the EPA’s inability to
control the total liability that may be imposed for a
tampering violation. The potential for overlapping
state and federal penalties has never, without more,
raised the inference that Congress intended to
preempt state law. See Garcia, 140 S. Ct. at 806; California v. Zook, 336 U.S. 725, 737, 69 S.Ct. 841, 93 L.Ed.
1005 (1949). 23
In fact, the text and structure of the CAA provides
greater support to the Counties. “Given that Congress
specifically preserved” the states’ authority to engage
in post-sale enforcement, see § 7543(d), “it stands to
reason that Congress did not intend to prevent the
23
Volkswagen appears to argue that because Congress listed
certain factors that the EPA “shall take into account” when determining the appropriate federal penalty, but did not require the
EPA to consider the possibility that states might enforce their
own anti-tampering rules, we must infer that Congress intended
to give the EPA exclusive authority to penalize tampering. In
other words, Volkswagen wants us to presume that Congress intends to displace state enforcement authority unless it expressly
preserves it. This argument turns the presumption that Congress
intends to preserve historic police powers on its head, and we reject it.

44a
States from using appropriate tools to exercise that authority.” Whiting, 563 U.S. at 600–01, 131 S.Ct. 1968.
Indeed, a determination that the CAA did not preserve
state enforcement of anti-tampering rules as applied to
post-sale vehicles would be inconsistent with the congressional framework. For example, if the CAA’s penalty provision preempted state and local governments
from imposing any penalty for post-sale tampering,
then the EPA would be the sole enforcement authority
for every incident of tampering with air pollution control equipment, including illegal alterations by the local
garage mechanic or do-it-yourself efforts to disable a
catalytic converter. 24 But nothing in the CAA suggests
that Congress intended the EPA to take over such local
law enforcement issues, to the exclusion of state and
local governments, which would have the effect of
preempting anti-tampering rules in nearly every state.
See supra at 1219-20 & n.19. The Supreme Court has
warned against “setting aside great numbers of state
statutes to satisfy a congressional purpose which would
be only the product of [judicial] imagination.” Zook, 336
U.S. at 732–33, 69 S.Ct. 841. Given the prevalence of
state anti-tampering rules, we are especially mindful of
the Court’s warning.

24
As the district court correctly explained, in 1990, Congress
expanded the scope of its anti-tampering provision to include individuals, as well as manufacturers, dealers, service operators,
and local mechanics. Compare Clean Air Act, Amendments, Pub.
L. No. 101-549 § 228(b), 104 Stat. 2399 (1990), with Clean Air Act
Amendments of 1977, Pub. L. 95-95 § 219(a), 91 Stat. 685 (1977).
Notably, there is nothing in the 1990 amendments that would indicate a congressional intent to make the EPA the sole enforcer
of tampering.

45a
In sum, the CAA’s cooperative federalism scheme,
its express preservation of state and local police powers post sale, and the complete absence of a congressional intent to vest in the EPA the exclusive authority
to regulate every incident of post-sale tampering,
raises the strong inference that Congress did not intend to deprive the EPA “of effective aid from local officers experienced in the kind of enforcement necessary to combat” the evil of tampering with emission
control systems. Id. at 737, 69 S.Ct. 841. Therefore,
Volkswagen’s penalty-provision arguments are not sufficient to pass over the “high threshold” which “must
be met if a state law is to be preempted for conflicting
with the purposes of a federal Act.” Whiting, 563 U.S.
at 607, 131 S.Ct. 1968 (citation omitted).
***
We affirm the district court’s dismissal of the Counties’ complaints to the extent they sought to apply antitampering rules to new motor vehicles. However, we
reverse the district court’s dismissal of the Counties’
complaints regarding post-sale tampering. We are
mindful that our conclusion may result in staggering
liability for Volkswagen. But this result is due to conduct that could not have been anticipated by Congress:
Volkswagen’s intentional tampering with post-sale vehicles to increase air pollution. We assume that this
conduct will be as rare as it is unprecedented. In any
event, we may not strain our application of the Supreme Court’s preemption doctrine, or our interpretation of statutory language, to avoid this outcome. “Ordinarily, state causes of action are not pre-empted
solely because they impose liability over and above that

46a
authorized by federal law, and no clear purpose of Congress indicates that we should decide otherwise in this
case.” ARC Am. Corp., 490 U.S. at 105, 109 S.Ct. 1661
(citation omitted).
AFFIRMED IN PART; REVERSED IN PART. 25

25

Each party shall bear its own costs.

47a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT
OF CALIFORNIA
__________
IN RE: VOLKSWAGEN “CLEAN DIESEL” MARKETING, SALES PRACTICES, AND PRODUCTS
LIABILITY LITIGATION
Case Nos. 16–cv–2210, 16–cv–5649
ENVIRONMENTAL PROTECTION COMMISSION OF
HILLSBOROUGH COUNTY V. VOLKSWAGEN ;
&
SALT LAKE COUNTY V. VOLKSWAGEN.
__________
Signed: April 16, 2018
__________
ORDER RE: DEFENDANTS’ MOTIONS TO DISMISS HILLSBOROUGH AND SALT LAKE COUNTIES’ AMENDED COMPLAINTS
In approximately 585,000 new vehicles that it sold in
the United States, Volkswagen installed software that
caused the vehicles’ emission controls to perform one
way during emissions testing, and another (less effective) way during normal driving conditions. The software constituted a “defeat device,” and Volkswagen vi-

48a
olated the Clean Air Act and EPA regulations by installing it. See 42 U.S.C. § 7522(a)(3); 40 C.F.R. §§
86.1803–01, 86.1809–01, 86.1809–10,–12.
Certain states and counties have asserted that
Volkswagen’s defeat device also violated state and local
laws that prohibit tampering with vehicle emission controls. Last year, the Court considered Volkswagen’s
motion to dismiss one of these actions, which was a case
filed by the State of Wyoming. The Court held that, because the only alleged conduct by Volkswagen that
could have violated the State’s tampering law took
place during vehicle manufacturing, the State’s tampering claim was preempted by the Clean Air Act. See
In re Volkswagen “Clean Diesel” Mktg., Sales Practices, & Prod. Liab. Litig. (“Wyoming”), 264 F.Supp.3d
1040 (N.D. Cal. 2017).
Two counties—Hillsborough County, Florida and
Salt Lake County, Utah—have filed tampering claims
against Volkswagen that are similar to Wyoming’s, except the Counties also allege that Volkswagen modified
its defeat device to operate more effectively, and perhaps even added new defeat devices, through software
updates during vehicle maintenance and post-sale recalls. The central question addressed in this Order is
whether these new allegations save the Counties’ tampering claims from preemption.
Hillsborough County has also named Robert Bosch
LLC as a defendant, and Salt Lake County has also
filed three additional state law claims against
Volkswagen. The Court will also consider whether the
tampering claim against Bosch and Salt Lake’s additional claims are preempted.

49a
I
Volkswagen’s defeat device is able to detect whether
the vehicles in which it is installed are undergoing
emissions testing, or being driven normally on the
road. During emissions testing, the device causes the
vehicles’ emission controls to perform in a mode that
satisfies EPA’s emission standards. When the vehicles
are on the road, the device reduces the effectiveness of
the emission controls, causing the vehicles to emit nitrogen oxides (NOx) at levels that are sometimes 40
times higher than EPA’s standards. (Hillsborough
Compl. ¶¶ 2–3; Salt Lake Compl. ¶¶ 4–5, 39–41.)
Volkswagen installed its defeat device in 2.0–liter
and 3.0–liter TDI diesel engine vehicles, covering eight
model years (model years 2009 through 2016) and a variety of model types—including Volkswagen’s Jetta,
Beetle, Golf and Passat models, Audi’s A3, A6 and A8
models, and the Porsche Cayenne. (Audi and Porsche
are subsidiaries of Volkswagen.) For each model year,
Volkswagen misrepresented to EPA that these vehicles complied with the agency’s emission standards.
(Hillsborough Compl. ¶¶ 1–7, 36–37, 44; Salt Lake
Compl. ¶¶ 2–5.)1

1
The Counties have also named Audi of America LLC and Porsche Cars North America, Inc. as defendants. (Hillsborough
Compl. ¶¶ 16–17 & nn. 6–7; Salt Lake Compl. ¶¶ 28, 30.) Because
the parties have not made Audi or Porsche specific arguments in
their briefing on the motions to dismiss, and because Audi and
Porsche are subsidiaries of the Volkswagen Group, the Court
uses the umbrella term “Volkswagen” to refer to all defendants
other than Bosch LLC.

50a
After independent, on-road testing in 2014 called
Volkswagen’s representations into question, EPA began an investigation. Throughout 2014 and the first
half of 2015, Volkswagen employees responded to
EPA’s inquiries by offering software and hardware
fixes, without revealing the underlying reason for the
discrepancies. (Hillsborough Compl. ¶¶ 82–86.) By the
second half of 2015, however, it became clear that the
fixes had not worked; and with EPA threatening not to
certify model-year 2016 vehicles for sale in the United
States, Volkswagen finally explained, in the fall of
2015, that certain of its vehicles used defeat device software. EPA subsequently issued Notices of Violation of
the Clean Air Act, and Volkswagen admitted publicly
that it had deliberately cheated on emissions tests. (Id.
¶¶ 90–94, 102.)
The United States, on behalf of EPA, responded by
filing civil and criminal actions against Volkswagen for
violations of the Clean Air Act. The criminal charges
included conspiracy to defraud the United States by
making false statements in submissions to EPA, in violation of 42 U.S.C. § 7413(c)(2)(A); and the civil
charges included tampering with vehicle emission controls, and unlawfully installing a defeat device, in violation of 42 U.S.C. § 7522(a)(3). (See United States v.
Volkswagen AG, No. 16–CR–20394, Dkt. No. 32 (E.D.
Mich. Mar. 10, 2017); United States v. Volkswagen AG,
No. 16–CV–00295, Dkt. No. 1 (N.D. Cal. Jan. 4, 2016).)
Volkswagen pled guilty to the criminal charges and settled the civil claims. The resulting plea agreement and
civil consent decrees require Volkswagen to remove
from the road or fix at least 85 percent of the affected
vehicles, to pay $4.3 billion in criminal and civil penal-

51a
ties, to fund $2.0 billion in Zero Emission Vehicle investments, and to contribute $2.925 billion to a mitigation trust, the beneficiaries of which are the states and
federal Indian tribes. (See Volkswagen AG, No. 16–
CR–20394, Dkt. No. 68 (plea agreement); MDL Dkt.
Nos. 2103, 3155, 3228 (civil consent decrees).)
Volkswagen also settled related claims that were
brought by classes of consumers. (See Dkt. Nos. 2102,
3229 (2.0–liter and 3.0–liter consumer class action settlement approval orders).) The 2.0–liter settlement requires Volkswagen to establish a $10.033 billion funding pool to buy back its 2.0–liter TDI vehicles and to
pay the owners and lessees of those vehicles restitution. (Dkt. No. 2102 at 19.)
As part of Volkswagen’s plea agreement, the company agreed to a Statement of Facts that it stipulated
was “true and correct” and that it agreed to “neither
contest the admissibility of, nor contradict, ... in any
proceeding.” (Plea Agreement § 1.E.) Therein
Volkswagen admitted to, among other things, making
certain modifications to its defeat device in or around
April 2013. The Counties acknowledge in their joint opposition brief that their post-sale software change allegations are based on these admissions. The Counties
have also attached a copy of the Statement of Facts to
their joint opposition to Defendants’ motions to dismiss. (See Dkt. No. 4640–1.) For simplicity, the Court
cites to the Statement of Facts throughout this order

52a
in discussing the software change allegations, and addresses any additional or conflicting allegations from
the Counties’ complaints where necessary. 2
As relevant here, Volkswagen has admitted that it
modified its defeat device in order to remedy hardware
failures that developed in certain of its 2.0–liter TDI
diesel engine vehicles in or around 2012. (SOF ¶ 47.)
The company hypothesized that the failures were the
result of a glitch with the defeat device, whereby the
vehicles were staying in testing or “dyno” mode even
when driven on the road, which was placing increased
stress on the vehicles’ exhaust systems. (Id.) To solve
the problem, the company developed a “steering wheel
angle recognition” feature, which “interacted with the
[defeat device] by enabling the vehicles to detect
whether [they] were being tested on a dynamometer
(where the steering wheel is not turned), or being
driven on the road.” (Id. ¶ 49.) After a Volkswagen supervisor authorized activation of this feature, in or
around April 2013, Volkswagen employees “installed
the new software function in new 2.0 Liter Subject Vehicles being sold in the United States, and later installed it in existing 2.0 Liter Subject Vehicles through
software updates during maintenance.” (Id. ¶ 50.)
Volkswagen also modified these vehicles so that they
would start in “street mode,” and then shift to “dyno

2
Volkswagen AG, a German corporation, is the entity that was
charged and pled guilty in the federal criminal case, whereas
Volkswagen Group of America, Inc., a Volkswagen AG subsidiary,
is the defendant in this case. This distinction is not material for
purposes of this Order, as the Counties allege that both
Volkswagen entities engaged in the conduct at issue.

53a
mode” when the defeat device recognized that the vehicles were undergoing emissions testing. (Id.)
Deviating from Volkswagen’s plea agreement somewhat, Hillsborough alleges that Volkswagen not only
modified its defeat device, but also installed “[a]t least
two new defeat devices ... through post-sale recalls.”
(Hillsborough Compl. ¶ 88.) Yet Hillsborough describes these “new” defeat devices in a manner that
mirrors the defeat device modifications described in
Volkswagen’s plea agreement. (See id. (describing one
new defeat device as a “steering wheel angle function”
device, and another new defeat device as a “start function” device that started the vehicles in one mode and
switched them to the other mode during testing).)
Hillsborough also alleges that Bosch LLC, as an engineering and electronics company, assisted with developing the defeat device and with implementing the
post-sale software changes. (Id. ¶¶ 38–42, 89.)
The Hillsborough Environmental Protection Commission (EPC) and the State of Utah have both adopted
vehicle tampering laws. These laws generally prohibit
anyone from removing or rendering inoperable a vehicle’s emission control system. See EPC Rule 1–8.05(1),
(6); Utah Admin. Code R307–201–4. The Counties allege that Defendants violated these laws (1) by manufacturing the defeat device and installing it in vehicles
that were ultimately registered in the Counties; and (2)
by modifying the defeat device in vehicles that were in
use within the Counties. (Hillsborough Compl. ¶¶ 143–
44; Salt Lake Compl. ¶ 55.) A violation of either Hillsborough’s or Salt Lake’s tampering law is punishable
by a civil penalty of up to $5,000 per offense, with each

54a
day that a violation occurs constituting a separate offense. See Hillsborough EPC Enabling Act, Fla. Laws
84–446 § 17(2) (as amended by Fla. Laws 87–495
(2005)); 3 Utah Code Ann. § 19–1–303. As alleged, at
least 1,118 affected vehicles are registered in Hillsborough County, and at least 5,000 affected vehicles
are registered in Salt Lake County. (Hillsborough
Compl. ¶ 10; Salt Lake Compl. ¶ 47.)
Salt Lake’s complaint also includes three claims in
addition to its tampering claim. These additional claims
are for common law fraud, violation of Utah’s Pattern
of Unlawful Activity Act, Utah Code Ann. §§ 76–10–
1601 to –1609, and common law nuisance. (Salt Lake
Compl. ¶¶ 58–78.)
II
Before considering the preemption questions, the
Court first addresses Defendants’ statutory arguments—that their conduct does not come within the
terms of the Counties’ tampering rules. The parties
have not cited to any judicial decision in which these
rules have been interpreted, or any legislative history
with respect to the rules. The Court therefore looks
only to the text of the rules.
A
Salt Lake County alleges that Volkswagen violated
the following rule in the Utah Administrative Code.

3
Hillsborough has attached a copy of the EPC Enabling Act
and the EPC’s tampering rules to its complaint. (See Dkt. Nos.
4457–1, –2.)

55a
The Court has added italics to the terms and phrases
at issue.
Any person owning or operating any motor
vehicle or motor vehicle engine registered
or principally operated in the State of Utah
on which is installed or incorporated a system or device for the control of crankcase
emissions or exhaust emissions in compliance with the Federal motor vehicle rules,
shall maintain the system or device in operable condition and shall use it at all times
that the motor vehicle or motor vehicle engine is operated. No person shall remove or
make inoperable the system or device or
any part thereof, except for the purpose of
installing another system or device, or part
thereof, which is equally or more effective
in reducing emissions from the vehicle to
the atmosphere.
Utah Admin. Code R307–201–4 (emphasis added).
Volkswagen argues that its conduct, as alleged, does
not come within the terms of this tampering rule for
three reasons. First, Volkswagen contends that the
rule prohibits tampering only by those “owning or operating” a motor vehicle, not manufacturers. This argument is based on the first sentence of the rule: “Any
person owning or operating any motor vehicle ... on
which is installed or incorporated a system or device
for the control of ... emissions ... shall maintain the system or device in operable condition....” If Salt Lake’s
tampering claim was based on that portion of the rule,
Volkswagen’s argument would have merit, as the “own-

56a
ing or operating” modifier of “any person” can reasonably be read to limit the rule’s coverage to end users of
motor vehicles, not vehicle manufacturers. Salt Lake’s
claim, though, is based on the second sentence of the
rule, not the first. And unlike the first sentence, the
second does not include the “owning or operating”
modifier, but instead applies to any person that removes or makes inoperable an emission control system
or device. See id. (“No person shall remove or make inoperable [an emission control system or device]....”).
The broader scope of the second sentence is not surprising. While the conduct proscribed by the first sentence—failing to “maintain” a vehicle’s emission controls—would most naturally apply only to those who
use or are responsible for a vehicle that is in use, the
conduct proscribed by the second sentence—tampering with vehicle emission controls—could be taken by
mechanics, manufacturers, parts suppliers, or
strangers in the parking lot. Volkswagen is accordingly
within the universe of parties to which the second sentence of Salt Lake’s rule may apply, and Volkswagen’s
focus on the “owning or operating” modifier in the first
sentence is not persuasive.
Volkswagen next focuses on the language “remov[ing] or mak[ing] inoperative” in the second sentence of Salt Lake’s tampering rule. It suggests that
“the word ‘remove’ most naturally connotes extracting
a pre-existing emission control device from a used car,
and ‘mak[ing] inoperative’ contemplates a transformation from an operative emissions control system to
an inoperative one.” (Dkt. No. 4583 at 26.) It then contends that the allegations do not support that it performed either of these actions.

57a
Salt Lake is relying on the “mak[ing] inoperative”
prong, not the “remov[ing]” prong of the rule. For example, Salt Lake alleges that, due to post-sale software
changes, “the affected vehicles’ emission control systems were made inoperable most of the time the vehicles were being operated in Salt Lake County.” (Salt
Lake Compl. ¶ 42.) This conduct clearly comes within
the reach of the “mak[ing] inoperative” prong: the allegations just quoted specifically refer to making the
emission control systems inoperable. Salt Lake also alleges that, before the software changes, Volkswagen’s
defeat device could detect when emissions testing was
complete, and “would respond by relaxing emissions
controls to permit higher levels of emissions of NOx
and other pollutants.” (Id. ¶ 4.) Arguably, “relaxing”
emission controls is not the same as making emission
controls “inoperative,” as inoperative suggests that the
controls were not functioning, while “relaxing” suggests that the controls were functioning less effectively. Under the circumstances alleged here, however,
this is a distinction without a difference. Salt Lake alleges that Volkswagen’s defeat device reduced the effectiveness of emission controls in such a manner that
the vehicles in which it was installed went from complying with EPA’s emission standards to emitting as
much as 40 times the level of NOx permitted by those
standards. (See id. ¶ 43; cf. SOF ¶ 34 (referring to NOx
levels that were sometimes 35 times higher than U.S.
standards).) This was a drastic reduction in the effectiveness of the emission controls; so drastic that, for all
practical purposes, the emission controls in the affected vehicles were indeed rendered “inoperable”
when the defeat device began to operate. The Court
therefore concludes that Volkswagen’s initial installation of the defeat device in the affected vehicles, and

58a
subsequent post-sale software changes, come within
the scope of the “mak[ing] inoperative” prong of Salt
Lake’s tampering rule.
Finally, Volkswagen points to the following language in Salt Lake’s rule: “on which is installed or incorporated a system or device for the control of ... exhaust emissions in compliance with the Federal motor
vehicle rules.” Volkswagen contends that this clause indicates that Salt Lake’s tampering rule “does not apply
to the original installation or updating of a noncompliant system, as Salt Lake alleges here.” (Dkt. No. 4583
at 26 (emphasis added).) That is, Volkswagen suggests
that because Salt Lake alleges that Volkswagen installed the defeat device in its vehicles during manufacturing, the vehicles never had compliant emission
control systems, and therefore could not be tampered
with under Salt Lake’s rule.
The Court does not agree with this interpretation.
Salt Lake alleges that Volkswagen installed emission
controls in the affected vehicles that, during emissions
testing, were able to satisfy EPA’s standards. The defeat device then rendered the vehicles’ otherwise compliant emission controls noncompliant when the vehicles were driven on the road. The defeat device, then,
“ma[d]e inoperable [a] system or device” that was “installed or incorporated ... for the control of ... exhaust
emissions in compliance with the Federal motor vehicle
rules.” Utah Admin. Code R307–201–4.
Volkswagen’s alleged conduct comes within the
terms of Salt Lake’s tampering rule.

59a
B
Volkswagen and Bosch also contend that their conduct does not come within the bounds of the tampering
rules invoked by Hillsborough County. Hillsborough
relies on two mobile source rules, which read as follows:
No person shall tamper, cause, or allow the
tampering of the emission control system of
any motor vehicle.
EPC Rule 1–8.05(1).
No person shall manufacture, install, sell or
advertise for sale, devices to defeat or render inoperable any component of a motor
vehicle’s emission control system....
EPC Rule 1–8.05(6). As used in these rules, “tampering” is defined as “the intentional inactivation, disconnection, removal or other modification of a component
or components of the emission control system.” EPC
Rule 1–8.03(2)(h). An “emission control system” in turn
is defined in part as “the devices and mechanisms installed as original equipment at the time of manufacture ... for the purpose of reducing or aiding in the control of emissions.” EPC Rule 1–8.03(2)(b).
Defendants contend that EPC Rule 1–8.05(1) applies only to the modification of “pre-existing emission
control systems.” (Dkt. Nos. 4583 at 27; 4584 at 7–8.)
Similarly, Defendants contend that EPC 1–8.05(6) prohibits only the manufacture or installation of a device
“to defeat or render inoperable” a part of an existing
“emission control system,” i.e., one that was already

60a
“installed as original equipment at the time of manufacture.” (Dkt. No. 4583 at 27.) Defendants then assert
that their conduct, as alleged by Hillsborough, does not
come within these provisions, because Hillsborough alleges that they installed a defeat device in the affected
vehicles at the same time that they installed the emission control system. They therefore assert that they
did not modify or render inoperable a pre-existing
“emission control system” as required to violate Hillsborough’s tampering rules.
This argument is essentially the same as the third
argument addressed above with respect to Salt Lake’s
tampering rule. For the same reasons, it is unpersuasive. As alleged, Defendants equipped the affected vehicles with emission controls that could—and did—
meet EPA’s emission standards during testing. Defendants also equipped the affected vehicles with a defeat device, which reduced the effectiveness of the vehicles’ emission controls during normal on-road driving. Whether the defeat device was installed at the exact same time as the emission controls, or was installed
sometime later during the manufacturing process, the
defeat device reduced the effectiveness of the vehicles’
emission controls during normal vehicle use and therefore “modified” and “render[ed] inoperable” certain
“devices and mechanisms installed as original equipment at the time of manufacture ... for the purpose of
reducing or aiding in the control of emissions.” EPC
Rules 1–8.03(2)(b), 1–8.05(1), (6). The same is true of
the alleged post-sale software changes, which clearly
took place after the original emission control systems
were installed in the affected vehicles. (See SOF ¶¶ 47–
51; see also Hillsborough Compl. ¶¶ 87–88; Salt Lake

61a
Compl. ¶ 42.) The Court accordingly concludes that Defendants’ alleged conduct comes within the bounds of
Hillsborough’s tampering rules.
III
Turning to the preemption analysis, the Court
starts on familiar ground. Like the Counties, Wyoming
previously asserted that Volkswagen violated a local
tampering law by manufacturing and installing a defeat device in its vehicles. The Court held that Wyoming’s tampering claim was expressly preempted by
Section 209(a) of the Clean Air Act.
Section 209(a) provides that
No State or any political subdivision
thereof shall adopt or attempt to enforce
any standard relating to the control of
emissions from new motor vehicles or new
motor vehicle engines subject to this part.
No State shall require certification, inspection, or any other approval relating to the
control of emissions from any new motor
vehicle or new motor vehicle engine as condition precedent to the initial retail sale, titling (if any), or registration of such motor
vehicle, motor vehicle engine, or equipment.
42 U.S.C. § 7543(a)(emphasis added).
The Act defines “new motor vehicle” as “a motor vehicle the equitable or legal title to which has never been
transferred to an ultimate purchaser.” Id. § 7550(3).

62a
The Act does not define a “standard relating to the control of emissions,” but the Supreme Court offered two
examples of such a standard in South Coast Air Quality. The first is a rule that a vehicle “not emit more than
a certain amount of a given pollutant.” Engine Mfrs.
Ass’n v. S. Coast Air Quality Mgmt. Dist., 541 U.S.
246, 253, 124 S.Ct. 1756, 158 L.Ed.2d 529 (2004). The
second is a rule that a vehicle “be equipped with a certain type of pollution-control device.” Id.
These “standards” are the same types of rules that
Congress requires EPA to enact and enforce in Title II
of the Clean Air Act. Specifically, Congress has tasked
EPA with setting emission limits for new vehicles introduced into commerce, 42 U.S.C. § 7521(a); setting
standards governing the use of emission-control devices in those vehicles, e.g., id. § 7521(a)(4)(A), (m);
running a certification and testing program to ensure
that new vehicles meet these standards, id. § 7525; and
enforcing these standards by refusing to certify vehicles that do not meet all regulatory requirements and
by bringing civil enforcement actions against violators,
see id. §§ 7522(a), 7524, 7525(a). Section 209(a) prohibits States and political subdivisions from doing the
same.4 Through this give and take, Congress has created a uniform regulatory regime governing emissions

4
The exception is California: Congress has allowed California
to set its own vehicle emission standards, and allows other states
to adopt California’s standards. See 42 U.S.C. §§ 7507; 7543(b);
Jensen Family Farms, Inc. v. Monterey Bay Unified Air Pollution
Control Dist., 644 F.3d 934, 938 n.3 (9th Cir. 2011). Because of
this exception, the California Air Resources Board (CARB) also
played an important role in investigating Volkswagen’s conduct,
as noted in Volkswagen’s plea agreement.

63a
from new vehicles, which it has done to avoid “the possibility of 50 different state regulatory regimes” governing vehicle emissions, which would “raise[ ] the
spectre of an anarchic patchwork of federal and state
regulatory programs” and would threaten “to create
nightmares for the manufacturers.” Engine Mfrs.
Ass’n v. EPA (“EMA”), 88 F.3d 1075, 1079 (D.C. Cir.
1996) (citation omitted).
In Wyoming, this Court held that EPA’s rule prohibiting the installation of defeat devices in new vehicles is a “standard relating to the control of emissions
from new motor vehicles.” Wyoming, 264 F.Supp.3d at
1052. In opposing Volkswagen’s motion to dismiss, Wyoming argued that its tampering claim was nevertheless not an “attempt to enforce” EPA’s rule, but rather
was only an attempt to regulate the use of
Volkswagen’s defeat device within the State’s borders.
It was on the roads of Wyoming, the State argued, that
the device reduced (and thereby tampered with) vehicle emission controls. Framed in this way, Wyoming asserted that its claim not only escaped the reach of Section 209(a)’s express preemption clause, but also was
protected by the Clean Air Act’s savings clause, Section 209(d), which provides that “Nothing in this part
shall preclude or deny any State or political subdivision
thereof the right otherwise to control, regulate, or restrict the use, operation, or movement of registered or
licensed motor vehicles.” 42 U.S.C. § 7543(d).
The Court did not find Wyoming’s in-use argument
persuasive. Yes, the defeat device operated in vehicles
within the State, but Volkswagen’s conduct took place
during manufacturing, when it installed the defeat de-

64a
vice in its new vehicles. Wyoming, then, was attempting to regulate Volkswagen’s conduct before its vehicles were sold to end users. And by doing so, the State
was attempting to enforce a standard relating to the
control of emissions from new motor vehicles. See Wyoming, 264 F.Supp.3d at 1056. The Court also noted
that, by definition, all defeat devices work by reducing
the effectiveness of emission controls during “normal
vehicle operation and use.” Id. (quoting 40 C.F.R. §
86.1803–01). Under Wyoming’s reading, then, “every
defeat device installed in a new vehicle that is later registered in the State will violate its tampering ... rule[ ],
without any additional action by the manufacturer who
installed the device.” Id. Thus, by regulating the use of
defeat devices, Wyoming would “effectively [be] regulating their installation.” Id.
IV
To the extent the Counties’ tampering claims are
based on the manufacture and installation of a defeat
device in new vehicles that were later registered in the
Counties, their claims are expressly preempted by Section 209(a) for the same reasons identified in Wyoming.
Although the defeat device may operate in vehicles
within the Counties, Defendants are alleged to have
manufactured the device and installed it in these vehicles before the vehicles were sold to end users. To the
extent the Counties seek to regulate that conduct, they
are “attempt[ing] to enforce [a] standard relating to
the control of emissions from new motor vehicles,”
which states and local governments cannot do under
Section 209(a).

65a
The alleged post-sale software changes to the affected vehicles requires a different analysis. The Counties allege that Defendants modified the defeat device
in the affected vehicles during vehicle maintenance, or
installed new defeat devices during post-sale recalls. In
either case, this conduct affected vehicles that had already been sold to consumers and were in use within
the Counties, not “new motor vehicles.” The Counties’
attempts to regulate Defendants’ post-sale software
changes are therefore not expressly preempted by Section 209(a).
In arguing to the contrary, Defendants note that
Wyoming also attempted to base its tampering claims
in part on certain post-sale software changes, and the
Court rejected that attempt. The Court did so on statutory grounds, however, not on the basis of preemption
under Section 209(a). This was because Wyoming alleged that certain software changes by Volkswagen
brought emissions down relative to the emissions allowed by the original defeat device. On that basis, the
Court held that the changes “did not violate ... Wyoming’s tampering provision ... because the updates did
not ‘render ineffective or inoperative’ the emission control system.” Wyoming, 264 F.Supp.3d at 1057 n.8. In
contrast, the Counties’ allegations support that the
post-sale software changes increased emissions. (See
Salt Lake Compl. ¶ 42; see also SOF ¶¶ 50–51) (admitting that the steering wheel angle recognition feature
“improve[d] the defeat device’s precision” and marked
an “expansion of the defeat device,” as this feature reduced the likelihood that the vehicles in which it was
installed would inadvertently operate in testing or
“dyno” mode during normal driving conditions). Unlike
Wyoming’s allegations, then, the Counties’ are based

66a
on conduct that could constitute tampering under their
respective tampering rules. And because the software
changes were made to vehicles that had already been
sold to consumers, the Counties’ attempts to regulate
the changes are not expressly preempted by Section
209(a).
Defendants make one additional argument with respect to Section 209(a), asserting that the relation-back
concept discussed in Allway Taxi, Inc. v. City of New
York, 340 F.Supp. 1120 (S.D.N.Y. 1972), aff’d, 468 F.2d
624 (2d Cir. 1972), and cited favorably by EPA in a regulation implementing non-road vehicle emission standards, see 59 Fed. Reg. 31306–01 (June 17, 1994), brings
the Counties’ tampering claims within the scope of Section 209(a). It does not. The idea behind that concept is
that if a state were to adopt “in-use emission control
measures that would apply immediately after a new vehicle or engine were purchased,” this would amount to
“an attempt to circumvent section 209 preemption and
would obstruct interstate commerce,” as manufacturers would feel pressure to ensure that their new vehicles complied with the state’s in-use control measures.
59 Fed. Reg. at 31330. As a result, courts have reasoned that, even though such measures would be imposed on vehicles only after they were sold, the
measures would relate back to the vehicle manufacturing process, and would therefore be preempted by Section 209(a). See Allway Taxi, 340 F.Supp. at 1123–24;
EMA, 88 F.3d at 1086 (“The Allway Taxi interpretation, postponing state regulation so that the burden of
compliance will not fall on the manufacturer, has prevented the definition of ‘new motor vehicle’ from ‘nullifying’ the motor vehicle preemption regime.”). The
Counties’ attempt to regulate Defendants’ post-sale

67a
software changes does not raise the same concerns.
The Counties are not attempting to impose emission
measures that would require manufacturers to change
the way they construct new vehicles. Rather, the Counties are attempting to prevent manufacturers from
tampering with their vehicles after the vehicles are
sold to end users. Because the relation-back concept is
not implicated here, it does not bring the Counties’
claims within the preemptive scope of Section 209(a).
That Section 209(a) does not expressly bar the
Counties’ attempts to regulate Defendants’ post-sale
software changes does not end the preemption analysis, however. This is because “neither an express preemption provision nor a saving clause ‘bars the ordinary working of conflict pre-emption principles.’”
Buckman Co. v. Pls.’ Legal Comm., 531 U.S. 341, 352,
121 S.Ct. 1012, 148 L.Ed.2d 854 (2001) (quoting Geier
v. Am. Honda Motor Co., 529 U.S. 861, 869, 120 S.Ct.
1913, 146 L.Ed.2d 914 (2000)). The Court must therefore also consider whether, “under the circumstances
of [this] particular case, the challenged state law
stands as an obstacle to the accomplishment and execution of the full purposes and objectives of Congress.”
Atay v. Cty. of Maui, 842 F.3d 688, 699 (9th Cir. 2016)
(quoting Crosby v. Nat’l Foreign Trade Council, 530
U.S. 363, 372–73, 120 S.Ct. 2288, 147 L.Ed.2d 352
(2000)). Where a statute “regulates a field traditionally
occupied by states, such as health, safety, and land
use,” courts “assume that a federal law does not
preempt the states’ police power absent a ‘clear and
manifest purpose of Congress.’” Id. (quoting Wyeth v.
Levine, 555 U.S. 555, 565, 129 S.Ct. 1187, 173 L.Ed.2d
51 (2009)).

68a
A
The Counties allege that Volkswagen and Bosch
made the post-sale software changes at issue on a
model-wide basis in thousands of vehicles nationwide.
As a consequence, the congressional objective that the
Court must identify is how Congress intended for
model-wide tampering by vehicle manufacturers and
parts suppliers to be regulated. The Counties view Section 209 of the Clean Air Act as answering that question: When vehicles are tampered with when they are
new, they contend that Section 209(a) prohibits states
and local governments from attempting to regulate
that conduct; but when vehicles are tampered with
when they are in use, they contend that Section 209(d)
allows states and local governments to regulate that
conduct, regardless of the magnitude of the tampering
offense or the identity of the offender, without interfering with the federal regulatory scheme.
The Clean Air Act does not draw such a clear line.
For one thing, the Act requires vehicles to meet EPA’s
emission standards during their “useful life.” 42 U.S.C.
§ 7521(a)(1). The federal regulation of vehicle emissions therefore does not stop after vehicles are sold to
end users. And although Congress has looked to both
EPA and the states and local governments to enforce
these useful life standards, the enforcement roles of
these entities do not entirely overlap. Instead, it is evident from the statutory scheme and legislative history
that Congress intended for EPA and the states and local governments to serve specific and separate functions in regulating emissions from in-use vehicles.

69a
EPA’s primary role after vehicles are put in use is
to ensure that entire classes or models of vehicles remain in compliance with the agency’s emission standards. Similar to during the new vehicle certification
process, EPA works with vehicle manufacturers to accomplish this. For example, pursuant to 42 U.S.C. §
7541(b), EPA has established “[m]anufacturer in-use
verification testing requirements.” 40 C.F.R. §
86.1845–04. To comply, vehicle manufacturers must
procure and test a specific number of vehicles in each
test group (categorized by, among other things, engine
type) that have been driven at least 10,000 miles (lowmileage testing) and 50,000 miles (high-mileage testing). See id. §§ 86.1827–01; 86.1845–04(b), (c). If a manufacturer’s vehicles do not pass these in-use tests, or if
EPA otherwise determines that “a substantial number
of any class or category of vehicles or engines, although
properly maintained and used, do not conform to the
regulations prescribed,” EPA has authority to recall
those vehicles. 42 U.S.C. § 7541(c)(1). Either before or
after vehicles are sold to end users, EPA may also inspect vehicle manufacturers’ records related to emissions testing, and may observe activities at the manufacturers’ plants. 42 U.S.C. § 7542. EPA also requires
manufactures to report to the agency emission related
defects discovered in used vehicles if the defects affect
at least 25 vehicles of the same model year. 40 C.F.R.
§ 85.1903(a). Emission related defects include defective
“software ... which must function properly to ensure
continued compliance with emission standards.” Id. §
85.1902(b)(2).
While Congress has tasked EPA with enforcing useful life emission standards on a model-wide basis, other

70a
provisions in the Clean Air Act, and the Act’s legislative history, reveal Congress’ intent to have states and
local governments enforce these standards by inspecting individual vehicles for compliance. Since Congress
first adopted the modern vehicle emissions scheme, in
1967, it has intended that “States responsibility would
be to assume responsibility for inspection of pollution
control systems as an integral part of safety inspection
programs....” S. Rep. 90–403, at 35 (1967). To encourage states to adopt such programs, Congress included
a provision in the Air Quality Act of 1967 that authorizes EPA to “make grants to appropriate State air pollution control agencies in an amount up to two-thirds of
the cost of developing meaningful uniform motor vehicle emission device inspection and emission testing
programs.” Pub. L. 90–148, § 209, 81 Stat. 502 (1967)
(codified as amended at 42 U.S.C. § 7544). In commenting on minor amendments to this provision as part of
the Clean Air Act Amendments of 1970, Congress also
noted that “Effective State emission testing and inspection programs [are] essential ... to assur[e] that vehicles, once delivered to the ultimate and subsequent
purchasers, continue to conform to the standards for
which they were certified.” S. Rep. 91–1196, at 31
(1970).
As Congress has made further amendments to the
Clean Air Act, and in particular as it responded to increasing emissions from vehicles in the 1970s and ‘80s,
which resulted from the increasing use of vehicles
throughout the nation, it has made some of these state
inspection programs mandatory, at least for states
with particularly high levels of certain pollutants. See
Clean Air Act Amendments of 1977, Pub. L. 95–95 §

71a
172(b)(11)(B), 91 Stat. 685, 747; Clean Air Act Amendments of 1990, Pub. L. 101–549, § 182(b)(4), (c)(3), 104
Stat. 2399, 2426. Under the current Clean Air Act,
then, certain states must adopt in-use vehicle inspection programs. See 42 U.S.C. § 7511a(b)(4), (c)(3). And
these programs must comply with EPA-established
minimum standards with respect to the frequency of
inspection, the types of vehicles to be inspected, and
the test methods and measures used. See id. §
7511a(a)(2)(B)(i); EPA Inspection/Maintenance Program Requirements Rule, 57 Fed. Reg. 52950 (Nov. 5,
1992). In states that are required to adopt “enhanced”
inspection programs, enforcement through denial of
vehicle registration is required. See 42 U.S.C. §
7511a(c)(3)(C)(iv). Many states and local governments,
like the Counties in this case, have also adopted tampering laws to bolster state inspection programs, or as
standalone provisions. These tampering laws generally
“prohibit the operation of motor vehicles when air pollution devices have been removed, altered, or rendered
inoperative.” Arnold W. Reitze Jr., Air Pollution Control Law: Compliance and Enforcement § 10–5(d)
(2001); see also 57 Fed. Reg. 24370–01 (June 9, 1992)
(EPA’s approval of Florida’s anti-tampering program);
52 Fed. Reg. 4921–02 (Feb. 18, 1987) (EPA’s approval
of Utah’s inspection and anti-tampering programs).
By their nature, state inspection programs operate
on an individual vehicle basis. This is clear from, among
other things, the use of vehicle registration denial as a
means of enforcement—which is a penalty that affects
the owners of specific non-compliant vehicles. It is also
clear from Section 207(h)(2) of the Clean Air Act.
There, Congress has provided that “Nothing in [Section 209(a) ] shall be construed to prohibit a State from

72a
testing or requiring testing of, a motor vehicle after the
date of sale of such vehicle to the ultimate purchaser....” 42 U.S.C. § 7541(h)(2). But the same provision follows with this exception: “(except that no new
motor vehicle manufacturer or dealer may be required
to conduct testing under this paragraph).” Through
this exception, Congress has manifested its intent that
state inspection programs should not interfere with vehicle manufacturers.
At times, the federal scheme reveals overlap between federal, state, and local enforcement authority
of emission standards. As notable for present purposes, Congress has adopted a federal tampering provision, which prohibits “any person” from removing or
rendering inoperative emission control devices either
before or after the vehicles in which the devices are installed are sold to ultimate purchasers. See 42 U.S.C. §
7522(a)(3)(A). Until 1990, this provision applied only to
manufacturers, dealers, fleet owners, service stations
or garage operators, and those in the business of leasing vehicles. See Clean Air Act Amendments of 1977,
Pub. L. 95–95 § 219(a), 91 Stat. 685, 761. But in the
Clean Air Act Amendments of 1990, Congress expanded the reach of the federal tampering law to also
cover individual owners and operators of vehicles. See
Pub. L. 101–549, § 228(b), 104. Stat. 2399, 2507 (codified at 42 U.S.C. § 7522(a)(3)(A)). In this respect, EPA,
similar to states and local governments, can regulate
individual vehicle owners’ compliance with emission
standards. Although no similar provisions in the Clean
Air Act reveal a crossover going the other way, with
states and local governments given authority to supplement EPA’s enforcement authority over vehicle
manufacturers’ compliance with emission standards.

73a
Further, the legislative history of the 1990 amendments reveals that Congress amended the federal tampering law only to supplement state efforts to regulate
tampering by individual vehicle owners and operators,
as tampering by individuals was proving to be problematic in states with and without inspection and tampering programs. See S. Rep. 101–228, at 123 (1989) (citing
tampering statistics from a 1988 tampering survey).
And while the amendments authorized EPA to regulate tampering by individuals, Congress “[did] not require sweeping new enforcement initiatives to be undertaken by EPA.” (Id. at 124.)
The division of authority discussed above—with
EPA enforcing useful life vehicle emission standards
primarily on a model-wide basis, and at the manufacturer level, and states and local governments enforcing
the same standards on an individual vehicle basis at the
end-user level—is sensible, as it best utilizes the comparative advantages of EPA and the states and local
governments. EPA, as a federal agency, is best positioned to enforce emission standards on a model-wide
basis because model-wide emission problems will almost invariably affect vehicles in states and counties
throughout the country. Further, when investigating
model-wide emission issues, EPA can also rely on testing data it acquired from manufacturers during the
new vehicle certification process, which it can utilize to
understand how vehicle models are performing in use
as compared to how they were performing during assembly-line testing. Likewise, because the new vehicle
certification process requires EPA to work directly
with vehicle manufacturers, the agency has preexisting
relationships that it can rely on when addressing
model-wide emission defects in used vehicles.

74a
States and local governments, in contrast, are in a
better position than EPA to enforce emission standards at the individual user level. Although Congress
could theoretically task EPA with overseeing nationwide vehicle inspection programs—with the agency
running testing centers and requiring vehicle owners
to have their vehicles checked on a regular basis—
states and local governments can more efficiently do so
because they already oversee vehicle registration and
drivers’ licensing, and can use state police power to aid
enforcement. Indeed, when Congress first sought to
motivate states to create vehicle inspection programs,
it did so based on the belief that states would adopt
such programs “as an integral part of safety inspection
programs.” S. Rep. 90–403, at 35 (1967).
This is not to say that there is no conceivable scenario, consistent with the Clean Air Act, in which states
and local governments could regulate a vehicle manufacturer’s compliance with emission standards. If, for
example, a manufacturer were to tamper with a single
in-use vehicle during vehicle maintenance, the Clean
Air Act would not bar a state or local government from
bringing a tampering claim against the manufacturer
if the tampering occurred within its borders. In such a
scenario, the manufacturer is not acting on a modelwide basis, and therefore the enforcement advantages
that EPA has over the states and local governments
are not implicated. But when a manufacturer’s actions
affect vehicles model wide, the Clean Air Act manifests
Congress’ intent that EPA, not the states or local governments, will regulate that conduct.

75a
B
The model-wide nature of the post-sale software
changes alleged here makes them the type of conduct
that Congress intended EPA to regulate. And indeed,
EPA has regulated this conduct. EPA was instrumental in bringing Volkswagen’s emissions fraud to light,
as it began an investigation in 2014 to determine why
on-road emissions from the affected vehicles significantly exceeded emissions during testing. (See Hillsborough Compl. ¶¶ 82–86; SOF ¶¶ 52–63.) And it was
only after EPA threatened not to certify certain modelyear 2016 vehicles that Volkswagen finally admitted
that it had equipped the affected vehicles with a defeat
device. (See Hillsborough Compl. ¶ 90; SOF ¶ 59.) EPA
has also brought civil and criminal actions against
Volkswagen based not only on the company’s initial installation of a defeat device in its vehicles, but also as a
result of the company’s post-sale software changes.
(See SOF ¶¶ 47–51 (detailing Volkswagen’s defeat device modifications as part of the factual basis for the
company’s guilty plea); Volkswagen AG, No. 3:16–CV–
00295, Dkt. No. 32–3, EPA Am. Civil Compl. ¶¶ 114–16,
195–97 (detailing Volkswagen’s defeat device modifications as conduct that violated the Clean Air Act and
EPA regulations).) These criminal and civil actions
have resulted in Volkswagen paying penalties and remediation payments totaling $9.23 billion, which is in
addition to a $10.033 billion funding pool Volkswagen
agreed to establish to buy back its 2.0–liter TDI vehicles and to pay the owners and lessees of those vehicles
restitution.

76a
The model-wide nature of the post-sale software
changes also distinguishes them from the type of conduct that Congress intended for states and local governments to regulate. State and local tampering laws
are meant to be used as a tool by states and counties to
regulate vehicles within their borders. If a mechanic
removes or alters a vehicle’s emission control system
during routine maintenance, for example, states and
counties are in the best position to penalize that conduct. But when the tampering at issue involves thousands of vehicles, and the changes are made through
software updates instituted on a nationwide basis, EPA
is in a better position to regulate that conduct, as it can
rely on the tools Congress has given it to police vehicle
manufacturers’ compliance with emission standards
before and after vehicles are put in use.
Due to technological advances, manufacturers today
also have the ability to impact their vehicles well after
sale to end users. Vehicles are increasingly computerized, and similar to the types of a remote updates that
consumers may receive on their phones or computers,
manufacturers may be able to modify software installed in vehicles just as easily. This is not the type of
conduct that states and local governments are in the
best position to regulate. Although it may be characterized as conduct that takes place at least in part
within their borders, it is conduct on a much broader,
national scale. And it is not conduct involving an individual consumer’s vehicle; rather, it involves entire vehicle lines, makes, and models. This is the type of conduct that Congress intended EPA to regulate.
Not only is EPA better positioned than the Counties
to regulate Volkswagen’s post-sale software changes,

77a
but if the Counties were permitted to regulate this conduct, the size of the potential tampering penalties could
significantly interfere with Congress’ regulatory
scheme. “The obligation to pay compensation can be,
indeed is designed to be, a potent method of governing
conduct and controlling policy.” Cipollone v. Liggett
Grp., Inc., 505 U.S. 504, 521, 112 S.Ct. 2608, 120
L.Ed.2d 407 (1992) (quoting San Diego Building
Trades Council v. Garmon, 359 U.S. 236, 247, 79 S.Ct.
773, 3 L.Ed.2d 775 (1959)). This is because “[e]ven if [a]
regulated entity can comply with both state and federal
sanctions, the mere fact of ... inconsistent sanctions can
undermine the federal choice of the degree of pressure
to be employed, ‘undermining the congressional calibration of force.’” Compass Airlines LLC v. Mont.
Dep’t of Labor & Indus., No. CV 12-105-H-CCL, 2013
WL 4401045, at *13 (D. Mont. Aug. 12, 2013) (quoting
Crosby, 530 U.S. at 379–80, 120 S.Ct. 2288).
As relevant here, Congress has set specific penalties
for vehicle tampering by manufacturers. See 42 U.S.C.
§ 7524(a) (up to $25,000 per violation by manufacturers
and dealers, and up to $2,500 per violation by any other
person). And Volkswagen’s tampering has triggered
those penalties. The Counties now seek to impose additional, significant sanctions for the same conduct,
with a violation of either Hillsborough’s or Salt Lake’s
tampering rule punishable by a civil penalty of up to
$5,000 per offense per day of noncompliance. See Hillsborough EPC Enabling Act § 17(2); Utah Code Ann. §
19–1–303. With at least 1,118 affected vehicles allegedly registered in Hillsborough County, and at least
5,000 allegedly registered in Salt Lake County, and
with the tampering at issue occurring in or around
April 2013, and continuing for over a year until

78a
Volkswagen admitted to using a defeat device in the fall
of 2015, the potential penalties could reach $30.6 million per day and $11.2 billion per year—and that is just
for two counties. If other counties and states bring similar claims—and indeed some already have 5—the potential penalties could dwarf those paid to EPA, which
would seriously undermine the congressional calibration of force for tampering by vehicle manufacturers. 6
Even if actual penalties are lower, if tampering
claims like the Counties’ are allowed to proceed, vehicle manufacturers could be subjected to up to 50 state
and approximately 3,000 county regulatory actions
based on uniform conduct that happened nationwide.
The substantial nature of the potential penalties for the
Counties’ tampering claims, and the significant regulatory burden that would ensue if manufacturers were
subject to tampering claims throughout the United
States, further demonstrates the conflict that the
Counties’ claims create with federal policy. See Crosby,
Counsel for Volkswagen has represented that 28 counties in
Texas, and at least 8 states have asserted tampering claims
against the company that are based on its post-sale software modifications. (See Dkt. No. 4715 at 7 (Feb. 1, 2018 Hr’g Tr.); Dkt.
No. 4887 (Notice of Recent Decisions).) The Counties have not
contested these representations.
6
The penalties sought by the Counties would also be above and
beyond the remediation that consumers in the Counties have already received by way of the consumer class action settlements,
and beyond the payments that the Counties’ home states—Florida and Utah—have or are expected to receive as beneficiaries to
Volkswagen’s emissions mitigation trust. As beneficiaries, Florida is expected to receive approximately $166 million, and Utah is
expected to receive approximately $35 million. (Dkt. Nos. 2103–1
at 207; 3228–1 at 164.)
5

79a
530 U.S. at 380, 120 S.Ct. 2288 (“‘Conflict is imminent’
when ‘two separate remedies are brought to bear on
the same activity.’” (quoting Wis. Dept. of Indus. v.
Gould, Inc., 475 U.S. 282, 286, 106 S.Ct. 1057, 89
L.Ed.2d 223 (1986))). 7
The same analysis applies to Hillsborough’s tampering claim against Bosch. Hillsborough alleges that
Bosch assisted Volkswagen in developing the defeat
device that was ultimately used in hundreds of thousands of vehicles in the United States, and in implementing the post-sale software changes to these vehicles. EPA, not the states and counties, is in the best
position to regulate this conduct, as the conduct alleg-

The Counties’ tampering claims also threaten to interfere
with the injunctive relief obtained by EPA. At the time of the consent decrees, EPA and Volkswagen acknowledged that there
were “no practical engineering solutions that would, without negative impact to vehicle functions and unacceptable delay,” bring
the majority of the affected vehicles into compliance with existing
emission standards. (Dkt. Nos. 2103–1 at 5 ¶ 2; 3228–1 at 5 ¶ 2.)
Yet to “avoid undue waste and potential environmental harm that
would be associated with removing” the affected vehicles fro m
service, EPA agreed to allow Volkswagen to offer emissions modifications to the owners and lessees of the affected vehicles if the
modifications “would substantially reduce NOx emissions.” (Dkt.
Nos. 2103–1 at 6 ¶ 4; 3228–1 at 7 ¶ 4.) This approach reflected the
type of careful balancing that is required in responding to a nationwide environmental problem like the one at issue here. But
the Counties may jeopardize this balance by asserting that vehicles with EPA-approved modifications continue to violate their
tampering rules because the modifications do not bring the vehicles into compliance with the originally certified emission standards. This threat of inconsistent sanctions further demonstrates
the conflict between the Counties’ tampering claims and federal
policy.
7

80a
edly affected vehicles on a model-wide basis. And although EPA has not filed an enforcement action against
Bosch, it has the authority to do so under federal tampering laws. See 42 U.S.C. § 7522(a)(3)(A) (reaching
“any person” that removes or renders inoperative vehicle emission control devices). State and local tampering actions against Bosch also threaten to create the
same regulatory nightmare that would occur if the actions are allowed to proceed against Volkswagen. In either instance, the claims could subject companies that
are responsible for developing motor vehicles to enforcement actions throughout the country based on
uniform conduct that happened nationwide.
The Clean Air Act’s savings clause, Section 209(d),
does not alter any of the above analysis. That provision
does not give states and local governments carte
blanche to regulate any conduct that affects emissions
from vehicles that are in use. Rather, the provision provides that “Nothing in this part shall preclude or deny
to any State or political subdivision thereof the right
otherwise to control, regulate, or restrict the use, operation, or movement of registered or licensed motor
vehicles.” 42 U.S.C. § 7543(d) (emphasis added). The
use of the term “otherwise” indicates that state and local government regulation of in-use vehicles is subject
to the limitations otherwise imposed by federal law.
And those limitations include the division of authority
between EPA and the states and local governments
discussed above.
Bolstering this conclusion, the legislative history of
Section 209(d) reveals that Congress’ intent in enacting
this saving clause was to ensure that states and local
governments had authority to adopt transportation

81a
planning regulations, not to regulate vehicle manufacturers. In the Senate Report for the Air Quality Act of
1967, the Committee on Public Works noted the following with respect to Section 209(d):
This language is of particular importance.
While there has been a great deal of concern expressed regarding control of new vehicles little attention has been paid to control of used vehicles, either their emissions
or their use. It may be that, in some areas,
certain conditions at certain times will require control of movement of vehicles.
Other areas may require alternative methods of transportation. Unfortunately some
of these alternatives have been ignored and
the onus of control has been placed solely
on the automobile manufacturers.
It is clear that, if a pollution-free (or at least
minimized) rapid transit system reduced
commuter traffic there would be a corresponding decrease in automobile-related
air pollution. And any significant advance in
control of used vehicles would result in a
corresponding reduction in air pollution.
These are areas in which the States and local government can be most effective.
S. Rep. No. 90–403, at 34 (1967).
Section 209(d), then, was viewed as providing states
and local governments with the authority to “control
[the] movement of vehicles” so that they could “reduce[
] commuter traffic” and thereby “decrease ... automobile-related air pollution.” Id.; see also EMA, 88 F.3d

82a
at 1094 (recognizing that Section 209(d) “protect[s] the
power of states to adopt ... in-use regulations,” such as
“carpool lanes, restrictions on car use in downtown areas, and programs to control extended idling of vehicles”) (citation omitted). These are not the types of
measures that affect vehicle manufacturers and parts
suppliers. To the contrary, the legislative history reveals that the intent of Section 209(d) was to give states
and local governments a tool to lessen the burden on
vehicle manufacturers—as manufacturers are ultimately the ones that must develop and implement the
technology capable of meeting federal vehicle emission
standards.
Courts have “repeatedly ‘declined to give broad effect to saving clauses where doing so would upset the
careful regulatory scheme established by federal law.’”
Geier, 529 U.S. at 870, 120 S.Ct. 1913 (quoting United
States v. Locke, 529 U.S. 89, 106–07, 120 S.Ct. 1135, 146
L.Ed.2d 69 (2000)). Interpreting Section 209(d) in the
manner suggested by the Counties would have just
such a destabilizing effect. When the Clean Air Act is
considered as a whole, it is clear that Congress intended for EPA to regulate vehicle emission standards
on a model-wide basis, while states and local governments would regulate compliance with these standards
at the individual vehicle level. Section 209(d) does not
modify that framework.
***
The Counties’ tampering claims, based on post-sale
software changes to the affected vehicles by
Volkswagen and Bosch, are an attempt to enforce vehicle emission standards on a model-wide basis. Because

83a
Congress intended for only EPA to regulate such conduct, the Court concludes that these claims stand as an
obstacle to Congress’ purpose and are preempted by
the Clean Air Act.
V
Salt Lake County’s complaint includes three additional claims against Volkswagen. These claims are for
common law fraud, violation of Utah’s Pattern of Unlawful Activity Act, which is a state RICO statute, and
common law nuisance. Volkswagen argues that each of
these claims is preempted by the Clean Air Act. The
Court agrees.
The decision in In re Office of Attorney General of
State of New York (“Detroit Diesel”), 269 A.D.2d 1, 709
N.Y.S.2d 1 (2000), is instructive. Similar to here, that
case involved vehicle manufacturers’ use of a defeat device, and a state’s attempt to bring common law claims
against the manufacturers as a result. The dispute between the state and the manufacturers followed an
EPA investigation, lawsuit, and settlement. Id. at 3–4,
709 N.Y.S.2d 1. After the settlement was formalized in
a series of consent decrees, the New York Attorney
General subpoenaed the manufacturers—seeking testing data and other documents that the manufacturers
had provided to EPA. Id. at 4, 709 N.Y.S.2d 1. Although
the Attorney General initially represented that he
would use the requested material primarily to support
New York’s public comments on the consent decrees,
he later noted that he sought to bring “State commonlaw actions for damages, such as fraud, breach of warranty, public nuisance and conspiracy to restrain
trade,” which he asserted were “not preempted by the
Clean Air Act.” Id. at 5, 709 N.Y.S.2d 1.

84a
The state trial court held that the common law
claims were preempted, and the appellate court affirmed. Id. In the appellate decision, the court noted
that common law claims “may be preempted if such
claims would unavoidably result in serious interference
with the accomplishment and execution of the full purposes and objectives of Congress.” Id. at 10, 709
N.Y.S.2d 1 (internal quotation marks omitted). The
court then concluded that the Attorney General’s common law claims would create just such interference, because the Attorney General was “seeking to use [state]
common law to penalize the manufacturers for producing engines which failed to comply with the Federal
standards promulgated pursuant to the [Clean Air
Act].” Id. at 11, 709 N.Y.S.2d 1. For example, the court
reasoned that “the Attorney General’s claim sounding
in fraud has its genesis in the manufacturers’ purported concealment or misrepresentation of their violations of the Federal emissions standards, and liability would necessarily be based on the scope of those
standards.” Id. at 11–12, 709 N.Y.S.2d 1. Similarly, the
court reasoned that the Attorney General’s nuisance
claim, which was “based upon the notion that the manufacturers’ alleged circumvention of federal emission
control requirements ha[d] resulted in 1.3 million[ ] ...
tons of excess NOx emissions annually,” would require
“a determination of whether the manufacturers complied with the Federal emissions standard.” Id. at 12,
709 N.Y.S.2d 1 (internal quotation marks omitted). If
the Attorney General were allowed to bring these
claims, the court reasoned, the Attorney General would
be indirectly attempting to enforce the federal emission standards. The court concluded that such a result
would lead to “the chaotic situation which Congress
sought to avoid” under the Clean Air Act, as all 50

85a
states could bring similar actions against vehicle manufacturers to indirectly enforce EPA’s emission standards. Id. at 11, 709 N.Y.S.2d 1.
The situation here is the same. Through its fraud,
nuisance, and state RICO claims, Salt Lake County is
attempting to penalize Volkswagen for its failure to
comply with federal emission standards. Salt Lake’s
fraud claim, for instance, is based on the contention
that Volkswagen misrepresented the amount of pollutants emitted by its vehicles, and concealed the use of
a defeat device in its vehicles. (Salt Lake Compl. ¶¶ 58–
65.) This is the same conduct underlying EPA’s claims
against Volkswagen for violations of the Clean Air Act.
The same is true of Salt Lake’s state RICO claim,
which is based on a “pattern of unlawful activity” that
includes alleged violations of Utah’s tampering, fraud,
deceptive business practices, and computer crime laws.
(See id. ¶¶ 66–73.) Salt Lake does not offer any factual
allegations to support this claim other than the allegations underlying Volkswagen’s violations of the Clean
Air Act. The state RICO claim accordingly “has its genesis in the manufacturers’ ... violations of the Federal
emissions standards, and liability would necessarily be
based on the scope of those standards.” Detroit Diesel,
269 A.D.2d at 11–12, 709 N.Y.S.2d 1. Finally, Salt Lake
bases its nuisance claim on Volkswagen’s “use of defeat
devices on the vehicles [it] distributed and [its] modification of software on in-service vehicles,” which the
County alleges “created a public nuisance” that “rendered the air of Salt Lake County impure or unwholesome.” (Compl. ¶ 75.) As the focus on Volkswagen’s use
of a defeat device demonstrates, this claim too is an attempt by the County to indirectly enforce EPA’s emission standards.

86a
With respect to the fraud claim, it is worth noting
that the facts here are distinguishable from those in
several cases in which courts have recently held that
fraud claims based on a vehicle manufacturer’s use of a
defeat device are not preempted by the Clean Air Act.
See In re Chrysler–Dodge–Jeep Ecodiesel Mktg., Sales
Practices, & Prod. Liab. Litig., 295 F.Supp.3d 927,
990–1000 (N.D. Cal. 2018); In re Duramax Diesel
Litig., 298 F.Supp.3d 1037, 1056–66, 2018 WL 949856
TLL, at *10–17 (E.D. Mich. 2018); Counts v. General
Motors LLC, 237 F.Supp.3d 572, 588–92 (E.D. Mich.
2017); In re Volkswagen “Clean Diesel” Litig. (“VW
Va.”), CL–2016–9917, 2016 WL 10880209, at *2–6 (Va.
Cir. Ct. Aug. 30, 2016). In each of those cases, the fraud
claims at issue were filed by consumers who allegedly
purchased vehicles that contained a defeat device, and
who alleged that they were deceived by the manufacturers’ representations about the vehicles’ emissions,
or by the manufacturers’ concealment of the emissions
cheating software. Under those circumstances, the
courts concluded that the consumers’ fraud claims
were not preempted by the Clean Air Act because the
claims were not an attempt to enforce EPA’s emission
standards, but rather were an attempt to hold the manufacturers liable for their false promises and deceit.
See VW Va., 2016 WL 10880209, at *5 (“Plaintiffs’ fraud
and VCPA claims do not rely on emissions violations....
Instead, Plaintiffs’ claims rely upon allegedly false
promises of compliance, efficiency, and new technology; or concealment of the fact that compliance testing
was being circumvented.”); Counts, 237 F.Supp.3d at
591 (reasoning that “the gravamen of Plaintiffs’ claims
... focus on the deceit about compliance, rather than the
need to enforce compliance”) (internal quotation marks

87a
omitted); Chrysler, 295 F.Supp.3d at 998 (“[T]he gravamen of Plaintiffs’ complaint ... is Defendants’ deceit,
not the violation per se of federal emissions standards.”); Duramax, 298 F.Supp.3d at 1062, 2018 WL
949856, at *14 (“The gravamen of their state law claims
is that they purchased a vehicle which polluted at levels
far greater than a reasonable consumer would expect.”). Unlike the consumers in the cases cited, Salt
Lake has not alleged that it purchased a vehicle affected by Volkswagen’s defeat device scheme. The
County therefore cannot contend that it was deceived
into purchasing one of the affected vehicles. The impact of a manufacturer’s deceit of consumers on the
preemption analysis is therefore not relevant here.
Like the Attorney General in Detroit Diesel, Salt
Lake seeks to use its common law and state statutory
claims to penalize Volkswagen for its model-wide noncompliance with EPA’s emission standards. Because
Congress intended for EPA to regulate such conduct,
Salt Lake’s claims would “unavoidably result in serious
interference with the accomplishment and execution of
the full purposes and objectives of Congress.” Detroit
Diesel, 269 A.D.2d at 10, 709 N.Y.S.2d 1 (internal quotation marks omitted). Salt Lake’s claims are therefore
preempted.
VI
Having concluded that the Counties’ claims are
preempted, the Court GRANTS Defendants’ motions
to dismiss the Counties’ complaints. Finding that an
amendment of the complaints would be futile, the
Court dismisses the complaints with prejudice.
IT IS SO ORDERED.

88a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
__________
Case No. 18-15937
IN RE VOLKSWAGEN “CLEAN DIESEL” MARKETING, SALES PRACTICES, AND PRODUCTS
LIABILITY LITIGATION,
THE ENVIRONMENTAL PROTECTION COMMISSION OF
HILLSBOROUGH COUNTY, FLORIDA; SALT LAKE
COUNTY, PLAINTIFFS-APPELLANTS,
V.

VOLKSWAGEN GROUP OF AMERICA, INC.; AUDI OF
AMERICA, LLC; PORSCHE CARS NORTH AMERICA,
INC.; ROBERT BOSCH, LLC; ROBERT BOSCH GMBH,
DEFENDANTS-APPELLEES.
__________
Filed:

August 24, 2020
__________

Before: TALLMAN, IKUTA, and N.R. SMITH, Circuit
Judges.
ORDER
The panel has unanimously voted to deny the Appellees’ Petition for Panel Rehearing or Rehearing En
Banc (ECF No. 78). Judges Tallman and N.R. Smith

89a
recommended denying the Petition for Rehearing En
Banc, and Judge Ikuta has voted to deny the Petition
for Rehearing En Banc.
The full court has been advised of the Petition for
Rehearing En Banc, and no Judge has requested a vote
on whether to rehear the matter en banc. Fed. R. App.
P. 35.
The Petition for Panel Rehearing or Rehearing En
Banc is DENIED.

90a
APPENDIX D
RELEVANT STATUTORY PROVISIONS
*
1.

*

*

*

*

2 U.S.C. § 2163 provides:

Capitol Grounds shuttle service
Funds appropriated for any available account of the
Architect of the Capitol after October 1, 1976, shall be
available for the purchase or rental, maintenance and
operation of passenger motor vehicles to provide shuttle service for Members and employees of Congress to
and from the buildings in the Legislative group.
*
2.

*

*

*

*

7 U.S.C. § 2262 provides:

Employee liability insurance on motor vehicles in
foreign countries
The Secretary of Agriculture is authorized to obtain insurance to cover the liability of any employee of the
Department of Agriculture for damage to or loss of
property or personal injury or death caused by the act
or omission of any such employee while acting within
the scope of his office or employment and while operating a motor vehicle belonging to the United States in
a foreign country.
*

*

*

*

*

91a
3.

42 U.S.C. § 7507 provides:

New motor vehicle emission standards in nonattainment areas
Notwithstanding section 7543(a) of this title, any State
which has plan provisions approved under this part
may adopt and enforce for any model year standards
relating to control of emissions from new motor vehicles or new motor vehicle engines and take such other
actions as are referred to in section 7543(a) of this title
respecting such vehicles if—
(1) such standards are identical to the California
standards for which a waiver has been granted for
such model year, and
(2) California and such State adopt such standards at least two years before commencement of
such model year (as determined by regulations of
the Administrator).
Nothing in this section or in subchapter II of this chapter shall be construed as authorizing any such State to
prohibit or limit, directly or indirectly, the manufacture or sale of a new motor vehicle or motor vehicle engine that is certified in California as meeting California
standards, or to take any action of any kind to create,
or have the effect of creating, a motor vehicle or motor
vehicle engine different than a motor vehicle or engine
certified in California under California standards (a
“third vehicle”) or otherwise create such a “third vehicle”.
*

*

*

*

*

92a
4.

42 U.S.C. § 7521(a) provides in pertinent part:

Emission standards for new motor vehicles or new
motor vehicle engines
(a) Authority of Administrator to prescribe by regulation
Except as otherwise provided in subsection (b)—
(1) The Administrator shall by regulation prescribe (and from time to time revise) in accordance
with the provisions of this section, standards applicable to the emission of any air pollutant from any
class or classes of new motor vehicles or new motor
vehicle engines, which in his judgment cause, or
contribute to, air pollution which may reasonably be
anticipated to endanger public health or welfare.
Such standards shall be applicable to such vehicles
and engines for their useful life (as determined under subsection (d), relating to useful life of vehicles
for purposes of certification), whether such vehicles
and engines are designed as complete systems or
incorporate devices to prevent or control such pollution.
*
5.

*

*

*

*

42 U.S.C. § 7521(d) provides in pertinent part:

Emission standards for new motor vehicles or new
motor vehicle engines
(d) Useful life of vehicles

93a
The Administrator shall prescribe regulations under
which the useful life of vehicles and engines shall be
determined for purposes of subsection (a)(1) of this
section and section 7541 of this title. Such regulations
shall provide that except where a different useful life
period is specified in this subchapter useful life shall—
(1) in the case of light duty vehicles and light
duty vehicle engines and light-duty trucks up to
3,750 lbs. LVW and up to 6,000 lbs. GVWR, be a period of use of five years or fifty thousand miles (or
the equivalent), whichever first occurs, except that
in the case of any requirement of this section which
first becomes applicable after November 15, 1990,
where the useful life period is not otherwise specified for such vehicles and engines, the period shall
be 10 years or 100,000 miles (or the equivalent),
whichever first occurs, with testing for purposes of
in-use compliance under section 7541 of this title up
to (but not beyond) 7 years or 75,000 miles (or the
equivalent), whichever first occurs;
*
6.

*

*

*

*

42 U.S.C. § 7522(a) provides in pertinent part:

Prohibited acts
(a) Enumerated prohibitions
The following acts and the causing thereof are prohibited—
(3)(A) for any person to remove or render inoperative any device or element of design installed on

94a
or in a motor vehicle or motor vehicle engine in compliance with regulations under this subchapter
prior to its sale and delivery to the ultimate purchaser, or for any person knowingly to remove or
render inoperative any such device or element of
design after such sale and delivery to the ultimate
purchaser; or
*
7.

*

*

*

*

42 U.S.C. § 7523(b) provides:

Actions to restrain violations
(b) Actions brought by or in name of United States;
subpenas
Actions to restrain such violations shall be brought by
and in the name of the United States. In any such action, subpenas for witnesses who are required to attend
a district court in any district may run into any other
district.
*
8.

*

*

*

*

42 U.S.C. § 7524(a) provides:

Civil penalties
(a) Violations
Any person who violates sections 7522(a)(1), 7522(a)(4),
or 7522(a)(5) of this title or any manufacturer or dealer
who violates section 7522(a)(3)(A) of this title shall be
subject to a civil penalty of not more than $25,000. Any

95a
person other than a manufacturer or dealer who violates section 7522(a)(3)(A) of this title or any person
who violates section 7522(a)(3)(B) of this title shall be
subject to a civil penalty of not more than $2,500. Any
such violation with respect to paragraph (1), (3)(A), or
(4) of section 7522(a) of this title shall constitute a separate offense with respect to each motor vehicle or motor vehicle engine. Any such violation with respect to
section 7522(a)(3)(B) of this title shall constitute a separate offense with respect to each part or component.
Any person who violates section 7522(a)(2) of this title
shall be subject to a civil penalty of not more than
$25,000 per day of violation.
*
9.

*

*

*

*

42 U.S.C. § 7524(c) provides in pertinent part:

Civil penalties
(c) Administrative assessment of certain penalties
(2) Determining amount
In determining the amount of any civil penalty
assessed under this subsection, the Administrator
shall take into account the gravity of the violation,
the economic benefit or savings (if any) resulting
from the violation, the size of the violator’s business, the violator’s history of compliance with this
subchapter, action taken to remedy the violation,
the effect of the penalty on the violator’s ability to
continue in business, and such other matters as justice may require.
*

*

*

*

*

96a
10.

42 U.S.C. § 7541(a) provides in pertinent part:

Compliance by vehicles and engines in actual use
(a) Warranty; certification; payment of replacement costs of parts, devices, or components designed for emission control
(1) Effective with respect to vehicles and engines
manufactured in model years beginning more than
60 days after December 31, 1970, the manufacturer
of each new motor vehicle and new motor vehicle
engine shall warrant to the ultimate purchaser and
each subsequent purchaser that such vehicle or engine is (A) designed, built, and equipped so as to
conform at the time of sale with applicable regulations under section 7521 of this title, and (B) free
from defects in materials and workmanship which
cause such vehicle or engine to fail to conform with
applicable regulations for its useful life (as determined under section 7521(d) of this title). In the
case of vehicles and engines manufactured in the
model year 1995 and thereafter such warranty shall
require that the vehicle or engine is free from any
such defects for the warranty period provided under subsection (i).
(3) The cost of any part, device, or component of
any light-duty vehicle that is designed for emission
control and which in the instructions issued pursuant to subsection (c)(3) of this section is scheduled
for replacement during the useful life of the vehicle
in order to maintain compliance with regulations
under section 7521 of this title, the failure of which
shall not interfere with the normal performance of

97a
the vehicle, and the expected retail price of which,
including installation costs, is greater than 2 percent of the suggested retail price of such vehicle,
shall be borne or reimbursed at the time of replacement by the vehicle manufacturer and such replacement shall be provided without cost to the ultimate
purchaser, subsequent purchaser, or dealer. The
term “designed for emission control” as used in the
preceding sentence means a catalytic converter,
thermal reactor, or other component installed on or
in a vehicle for the sole or primary purpose of reducing vehicle emissions (not including those vehicle components which were in general use prior to
model year 1968 and the primary function of which
is not related to emission control).
*
11.

*

*

*

*

42 U.S.C. § 7541(b) provides:

Compliance by vehicles and engines in actual use
(b) Testing methods and procedures
If the Administrator determines that (i) there are
available testing methods and procedures to ascertain
whether, when in actual use throughout its the warranty period (as determined under subsection (i)), each
vehicle and engine to which regulations under section
7521 of this title apply complies with the emission
standards of such regulations, (ii) such methods and
procedures are in accordance with good engineering
practices, and (iii) such methods and procedures are
reasonably capable of being correlated with tests conducted under section 7525(a)(1) of this title, then—

98a
(1) he shall establish such methods and procedures by regulation, and
(2) at such time as he determines that inspection
facilities or equipment are available for purposes of
carrying out testing methods and procedures established under paragraph (1), he shall prescribe regulations which shall require manufacturers to warrant the emission control device or system of each
new motor vehicle or new motor vehicle engine to
which a regulation under section 7521 of this title
applies and which is manufactured in a model year
beginning after the Administrator first prescribes
warranty regulations under this paragraph (2). The
warranty under such regulations shall run to the ultimate purchaser and each subsequent purchaser
and shall provide that if—
(A) the vehicle or engine is maintained and
operated in accordance with instructions under
subsection (c)(3),
(B) it fails to conform at any time during its
the warranty period (as determined under subsection (i)) to the regulations prescribed under
section 7521 of this title, and
(C) such nonconformity results in the ultimate purchaser (or any subsequent purchaser)
of such vehicle or engine having to bear any penalty or other sanction (including the denial of the
right to use such vehicle or engine) under State
or Federal law,

99a
then such manufacturer shall remedy such nonconformity under such warranty with the cost thereof
to be borne by the manufacturer. No such warranty
shall be invalid on the basis of any part used in the
maintenance or repair of a vehicle or engine if such
part was certified as provided under subsection
(a)(2).
*
12.

*

*

*

*

42 U.S.C. § 7541(c) provides in pertinent part:

Compliance by vehicles and engines in actual use
(c) Nonconforming vehicles; plan for remedying
nonconformity; instructions for maintenance and
use; label or tag
Effective with respect to vehicles and engines manufactured during model years beginning more than 60
days after December 31, 1970—
(1) If the Administrator determines that a substantial number of any class or category of vehicles
or engines, although properly maintained and used,
do not conform to the regulations prescribed under
section 7521 of this title, when in actual use
throughout their useful life (as determined under
section 7521(d) of this title), he shall immediately
notify the manufacturer thereof of such nonconformity, and he shall require the manufacturer to
submit a plan for remedying the nonconformity of
the vehicles or engines with respect to which such
notification is given. The plan shall provide that the
nonconformity of any such vehicles or engines

100a
which are properly used and maintained will be
remedied at the expense of the manufacturer. If the
manufacturer disagrees with such determination of
nonconformity and so advises the Administrator,
the Administrator shall afford the manufacturer
and other interested persons an opportunity to present their views and evidence in support thereof at
a public hearing. Unless, as a result of such hearing
the Administrator withdraws such determination of
nonconformity, he shall, within 60 days after the
completion of such hearing, order the manufacturer
to provide prompt notification of such nonconformity in accordance with paragraph (2).
*
13.

*

*

*

*

42 U.S.C. § 7541(h) provides in pertinent part:

Compliance by vehicles and engines in actual use
(h) Dealer certification
(2) Nothing in section 7543(a) of this title shall
be construed to prohibit a State from testing, or requiring testing of, a motor vehicle after the date of
sale of such vehicle to the ultimate purchaser (except that no new motor vehicle manufacturer or
dealer may be required to conduct testing under
this paragraph).
*
14.

*

*

*

42 U.S.C. § 7542 provides:

Information collection

*

101a
(a) Manufacturer’s responsibility
Every manufacturer of new motor vehicles or new motor vehicle engines, and every manufacturer of new motor vehicle or engine parts or components, and other
persons subject to the requirements of this part or part
C, shall establish and maintain records, perform tests
where such testing is not otherwise reasonably available under this part and part C (including fees for testing), make reports and provide information the Administrator may reasonably require to determine whether
the manufacturer or other person has acted or is acting
in compliance with this part and part C and regulations
thereunder, or to otherwise carry out the provision of
this part and part C, and shall, upon request of an officer or employee duly designated by the Administrator, permit such officer or employee at reasonable
times to have access to and copy such records.
(b) Enforcement authority
For the purposes of enforcement of this section, officers or employees duly designated by the Administrator
upon presenting appropriate credentials are authorized—
(1) to enter, at reasonable times, any establishment of the manufacturer, or of any person whom
the manufacturer engages to perform any activity
required by subsection (a), for the purposes of inspecting or observing any activity conducted pursuant to subsection (a), and

102a
(2) to inspect records, files, papers, processes,
controls, and facilities used in performing any activity required by subsection (a), by such manufacturer or by any person whom the manufacturer engages to perform any such activity.
(c) Availability to public; trade secrets
Any records, reports, or information obtained under
this part or part C shall be available to the public, except that upon a showing satisfactory to the Administrator by any person that records, reports, or information, or a particular portion thereof (other than
emission data), to which the Administrator has access
under this section, if made public, would divulge methods or processes entitled to protection as trade secrets
of that person, the Administrator shall consider the
record, report, or information or particular portion
thereof confidential in accordance with the purposes of
section 1905 of title 18. Any authorized representative
of the Administrator shall be considered an employee
of the United States for purposes of section 1905 of title
18. Nothing in this section shall prohibit the Administrator or authorized representative of the Administrator from disclosing records, reports or information to
other officers, employees or authorized representatives of the United States concerned with carrying out
this chapter or when relevant in any proceeding under
this chapter. Nothing in this section shall authorize the
withholding of information by the Administrator or any
officer or employee under the Administrator’s control
from the duly authorized committees of the Congress.
*

*

*

*

*

103a
15.

42 U.S.C. § 7543(a) provides:

State standards
(a) Prohibition
No State or any political subdivision thereof shall
adopt or attempt to enforce any standard relating to
the control of emissions from new motor vehicles or
new motor vehicle engines subject to this part. No
State shall require certification, inspection, or any
other approval relating to the control of emissions from
any new motor vehicle or new motor vehicle engine as
condition precedent to the initial retail sale, titling (if
any), or registration of such motor vehicle, motor vehicle engine, or equipment.
*
16.

*

*

*

*

42 U.S.C. § 7543(b) provides:

State standards
(b) Waiver
(1) The Administrator shall, after notice and opportunity for public hearing, waive application of
this section to any State which has adopted standards (other than crankcase emission standards) for
the control of emissions from new motor vehicles or
new motor vehicle engines prior to March 30, 1966,
if the State determines that the State standards will
be, in the aggregate, at least as protective of public
health and welfare as applicable Federal standards.
No such waiver shall be granted if the Administrator finds that—

104a
(A) the determination of the State is arbitrary and capricious,
(B) such State does not need such State
standards to meet compelling and extraordinary
conditions, or
(C) such State standards and accompanying
enforcement procedures are not consistent with
section 7521(a) of this title.
(2) If each State standard is at least as stringent
as the comparable applicable Federal standard,
such State standard shall be deemed to be at least
as protective of health and welfare as such Federal
standards for purposes of paragraph (1).
(3) In the case of any new motor vehicle or new
motor vehicle engine to which State standards apply pursuant to a waiver granted under paragraph
(1), compliance with such State standards shall be
treated as compliance with applicable Federal
standards for purposes of this subchapter.
*

*

*

*

*

105a
17.

42 U.S.C. § 7543(d) provides:

State standards
(d) Control, regulation, or restrictions on registered or licensed motor vehicles
Nothing in this part shall preclude or deny to any State
or political subdivision thereof the right otherwise to
control, regulate, or restrict the use, operation, or
movement of registered or licensed motor vehicles.
*
18.

*

*

*

*

42 U.S.C. § 7543(e) provides in pertinent part:

State standards
(e) Nonroad engines or vehicles
(1) Prohibition on certain State standards
No State or any political subdivision thereof
shall adopt or attempt to enforce any standard or
other requirement relating to the control of emissions from either of the following new nonroad engines or nonroad vehicles subject to regulation under this chapter—
(A) New engines which are used in construction equipment or vehicles or used in farm
equipment or vehicles and which are smaller
than 175 horsepower.
(B) New locomotives or new engines used in
locomotives.

106a
Subsection (b) shall not apply for purposes of this
paragraph.

107a
APPENDIX E
RELEVANT DICTIONARY DEFINITIONS
*

*

*

*

*

1.
Webster’s Third New International Dictionary
1581 (2002) provides, in pertinent part, the following
definitions of “operation”:
2
b: the quality or state of being functional or
operative — usu. used with in or into
< the plant has been in ~ for several weeks >
< the new line will be put into ~ soon >
c: method or manner of functioning
< a machine of very simple ~ >
< the ~ of circulation >
10:
the operating of or putting and maintaining
in action of something (as a machine or an industry)
< careful ~ of a motor car >
< problems in the ~ of a railroad >
*

*

*

*

*

108a
2.
Black’s Law Dictionary 1243 (4th ed. 1968) provides, in pertinent part, the following definition of “operate”:
This word, when used with relation to automobiles, signifies a personal act in working the
mechanism of the automobile; that is, the driver
operates the automobile for the owner, but the
owner does not operate the automobile unless he
drives it himself. Beard v. Clark, Tex.Civ.App.
83 S.W.2d 1023, 1025.

